               While Many Improvements Have Been Made,
                 Continued Focus Is Needed to Improve
               Contract Negotiations and Fully Realize the
               Potential of Performance-Based Contracting

                                     May 2005

                       Reference Number: 2005-20-083




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    May 26, 2005


      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                     CHIEF INFORMATION OFFICER


      FROM:                       Pamela J. Gardiner
                                  Deputy Inspector General for Audit

      SUBJECT:                    Final Audit Report - While Many Improvements
                                  Have Been Made, Continued Focus Is Needed to Improve
                                  Contract Negotiations and Fully Realize the Potential of
                                  Performance-Based Contracting (Audit # 200420002)


      This report represents the results of our review of the Internal Revenue Service’s (IRS)
      contract negotiation and management practices for the Business Systems
      Modernization (BSM) program. The overall objective of this review was to determine
      whether the IRS had established and was following adequate contract negotiation and
      contract management practices for the BSM program. As part of this objective, we also
      determined the status of the IRS’ corrective actions to a prior audit.1
      In summary, the BSM Office (BSMO)2 and the IRS Office of Procurement have long
      recognized the need to improve management of task orders3 for the BSM program and
      have been emphasizing the increased use of performance-based contracting (PBC).
      Use of PBC means structuring all aspects of an acquisition around the purpose of the
      work to be performed, with the contract requirements set forth in clear, specific, and
      objective terms with measurable outcomes.




      1
        Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
      Modernization Projects (Reference Number 2002-20-170, dated September 2002).
      2
        The IRS created the BSMO to manage the BSM effort and selected the Computer Sciences Corporation to be the
      PRIME contractor.
      3
        A task order is an order for services placed against an established contract.
                                                        2

Based on management’s actions to our prior recommendations4 and the BSM
Challenges Plan,5 the BSMO and Office of Procurement have made improvements to
contract management practices. For example, the BSM program has created a PBC
lessons-learned report and increased use of combined full and partial firm fixed-price
(FFP)6 task orders. While the BSMO and Office of Procurement continue to make
improvements to fully implement PBC for the BSM program, further improvements can
be made to increase the use of FFP task orders, provide for more successful contract
negotiations, and ensure improved PBC processes are followed.
We determined the use of FFP task orders within the BSM program has increased since
Fiscal Year 2001; however, further increases in the use of FFP task orders and sharing
of risk between the IRS and contractors are possible by using hybrid
FFP task orders when appropriate, gaining insight into the barriers blocking the
increased use of FFP task orders, removing barriers, and using other contracting
provisions to share risk with the contractors when use of an FFP task order is not
possible. We also determined the BSMO and Office of Procurement were not always
following best practices during contract negotiations. Lastly, we determined PBC
improvements have produced mixed results as the BSM program has struggled to
institute revised PBC processes.
To further balance risk between the IRS and the modernization contractors, we
recommended the Chief Information Officer (CIO) continue to increase the use of FFP
task orders and other risk-balancing provisions. As part of ongoing improvement
efforts, we recommended the CIO and the Chief, Agency-Wide Shared Services,
implement contract negotiation procedures to promote consistent application of best
practices and ensure the BSM program more fully realizes the potential of PBC by
developing a reasonable number of measurable performance standards; ensuring
performance standards and monitoring plans are linked to awards and incentives, when
appropriate; documenting the results of the contractor’s performance; and allowing
adequate time for negotiation activities.
Management’s Response: The CIO agreed with our recommendations and has
completed corrective actions on two of our three recommendations. To further balance
risk between the IRS and the modernization contractors, the CIO stated the IRS has
issued FFP guidance. In addition, the IRS will continue to consider FFP contracting,
address stabilizing requirements, and explore options to balance risk when FFP is not




4
  See Appendix VI for a detailed list of our prior recommendations and the IRS’ planned corrective actions.
5
  In mid-2003, the IRS and the PRIME contractor initiated four studies to help identify the root causes of the
problems hindering the BSM effort and make recommendations for remedying the problems identified. The BSM
Challenges Plan was created to address the studies’ recommendations and resolve longstanding BSM issues.
6
  An FFP task order sets a price that is not subject to any adjustment because of cost overruns incurred by the
contractor.
                                                         3

appropriate. To improve preaward planning and processes, the IRS will assess alpha
contracting7 to determine feasibility for broader application. The CIO also stated the IRS
has implemented a negotiation process to include all stakeholders in negotiations,
drafted an independent Government cost estimate template and procedure, issued a
procedure to ensure memorandums of understanding are negotiated, and will continue
to determine negotiation priorities and strategies.
To improve compliance with revised PBC guidance, the CIO stated the IRS has issued
statements of work templates containing measurable performance standards and
distributed historical data for all preaward activities. Also, the Office of Procurement will
continue to perform quality reviews of statements of work and monitoring plans, and an
independent review organization will conduct formal reviews of the statements of work,
monitoring plans, and monitoring artifacts twice yearly. Lastly, PBC training will be
scheduled and lessons learned will be posted.
In addition to responding to our recommendations, the CIO stated the IRS had
implemented additional improvement initiatives, such as issuing a procurement
negotiation procedure and conducting a PBC compliance review. Further, the CIO
stated the IRS had enhanced its contracting practices by using FFP and incentive
arrangements on four key projects. Management’s complete response to the draft
report is included in Appendix IX.
Office of Audit Comment: While the CIO agreed with all of our recommendations, we
are concerned with the stated corrective actions and associated implementation dates.
In several instances, we do not believe the stated corrective actions have corrected the
issues identified. In other instances, the corrective actions state there are ongoing
activities that are not yet completed; however, the implementation dates show the
corrective actions are closed.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




7
  Alpha contracting is a technique that uses a team approach to prepare, evaluate, and award proposals in
substantially less time than the traditional approach. Cost and technical detail are jointly developed to bypass
solicitation and proposal to produce a “model contract.” The team then adjusts the model contract to lower cost and
risk.
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                  Table of Contents


Background ............................................................................................... Page 1
Improvements Have Been Made to Contract Management Practices ....... Page 3
Barriers Exist to the Increased Use of Firm Fixed-Price Task Orders ....... Page 4
         Recommendation 1: .......................................................................Page 9

Contract Negotiations Are Not Consistently Following Best Practices ...... Page 11
         Recommendation 2: .......................................................................Page 16

Performance-Based Contracting Improvements Have Produced
Mixed Results............................................................................................ Page 17
         Recommendation 3: .......................................................................Page 25

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 28
Appendix II – Major Contributors to This Report ....................................... Page 31
Appendix III – Report Distribution List ....................................................... Page 32
Appendix IV – Outcome Measures............................................................ Page 33
Appendix V – Memorandum #1: Business Systems Modernization
Contracting and Cost/Schedule Estimation Recommendations ................ Page 36
Appendix VI – Prior Treasury Inspector General for Tax
Administration Recommendations............................................................. Page 58
Appendix VII – Enterprise Life Cycle Overview ......................................... Page 60
Appendix VIII – Application of Contract Negotiation Best Practices .......... Page 65
Appendix IX – Management’s Response to the Draft Report .................... Page 67
         While Many Improvements Have Been Made, Continued Focus Is Needed
  to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                      Contracting

                                  The Internal Revenue Service (IRS) is currently in the midst
Background
                                  of a multibillion dollar, multiyear Business Systems
                                  Modernization (BSM) effort. The IRS created the BSM
                                  Office (BSMO) to manage the effort and selected the
                                  Computer Sciences Corporation to be the PRIME
                                  contractor. Additional contractors have been hired to
                                  supplement the design and development of modernization
                                  projects.
                                  The BSMO and the IRS Office of Procurement have long
                                  recognized the need to improve management of task orders1
                                  for the BSM program and have been emphasizing the
                                  increased use of performance-based contracting (PBC) as
                                  one road toward this improvement. Use of PBC means
                                  structuring all aspects of an acquisition around the purpose
                                  of the work to be performed, with the contract requirements
                                  set forth in clear, specific, and objective terms with
                                  measurable outcomes.
                                  In March 2000, the IRS tasked Jefferson Solutions2 to teach
                                  IRS and PRIME contractor personnel how to properly
                                  implement PBC concepts. Since that time, the Treasury
                                  Inspector General for Tax Administration (TIGTA) has
                                  provided recommendations to improve contract
                                  management for the BSM program. See Appendix V for
                                  a memorandum we provided to the Chief Information
                                  Officer (CIO) summarizing our prior recommendations
                                  concerning contract management.
                                  We issued a report in September 2002 concerning the use of
                                  PBC techniques to manage task orders for the BSM
                                  program and whether contract terms and requirements were
                                  being met.3 Throughout the remainder of this report, when

                                  1
                                    A task order is an order for services placed against an established
                                  contract.
                                  2
                                    Jefferson Solutions is a division of Jefferson Consulting Group, LLC,
                                  and has been designated by the Office of Federal Procurement Policy to
                                  provide training on PBC.
                                  3
                                    Additional Improvements Are Needed in the Application of
                                  Performance-Based Contracting to Business Systems Modernization
                                  Projects (Reference Number 2002-20-170, dated September 2002).
                                  During the course of this audit, we followed up on six recommendations
                                  contained in this audit report. Please see Appendix VI for our
                                  recommendations and the IRS’ responses.
                                                                                                 Page 1
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                we refer to our prior audit, we are referring to that report.
                                We determined the IRS had made significant improvements
                                in getting agreements on task order requirements and
                                reducing modifications. However, we also determined
                                continuing improvements in the application of PBC
                                techniques in the following areas would improve the
                                BSMO’s ability to manage contractor performance:
                                •   Performance standards in project work statements were
                                    sometimes too numerous to be monitored, were not
                                    always measurable, and often focused on the production
                                    of documentation rather than the development of the
                                    business systems.
                                •   Plans for monitoring contractor performance were not
                                    consistent among projects, subjective monitoring
                                    methods were often used, and determinations of whether
                                    the PRIME contractor met the performance standard
                                    were often not made and documented.
                                •   Incentives were not consistently tied to specific levels of
                                    performance or balanced among the key areas of cost,
                                    schedule, and timeliness.
                                •   The BSMO had reduced the use of firm fixed-price
                                    (FFP)4 task orders, the type most recommended for
                                    PBC.
                                In mid-2003, the IRS and PRIME contractor initiated four
                                studies to help identify the root causes of the problems
                                hindering the BSM effort and make recommendations for
                                remedying the problems identified. The BSM Challenges
                                Plan was created to address the studies’ recommendations
                                and resolve longstanding BSM issues. The BSM
                                Challenges Plan includes several actions to focus on PBC,
                                including the establishment of a BSM Acquisitions Officer
                                and the implementation of an FFP policy.
                                In June 2004, the CIO met with us to express his concerns
                                regarding contracting for the BSM program. The CIO
                                stated he was mainly concerned with FFP policy


                                4
                                 An FFP task order sets a price that is not subject to any adjustment
                                because of cost overruns incurred by the contractor.
                                                                                                 Page 2
         While Many Improvements Have Been Made, Continued Focus Is Needed
  to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                      Contracting

                                  implementation and whether contract negotiation sessions
                                  were being conducted following best practices.
                                  This review was performed at the BSMO facilities in
                                  New Carrollton, Maryland, during the period July 2004
                                  through January 2005. The audit was conducted in
                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  This audit was conducted while changes were being made at
                                  both the BSM program level and the project level. We
                                  communicated the interim results of our review, as well as
                                  suggestions for improvement, to the BSMO in October 2004
                                  and the CIO in November 2004 and completed the majority
                                  of our fieldwork in December 2004. Any changes that have
                                  occurred since we concluded our analyses are not reflected
                                  in this report. As a result, this report may not reflect the
                                  most current status.
                                  Based on management’s actions to recommendations from
Improvements Have Been Made
                                  our prior audit and the BSM Challenges Plan, the BSMO
to Contract Management
                                  and Office of Procurement have made the following
Practices
                                  improvements to contract management practices:
                                  •   Issued guidance on developing measurable performance
                                      standards, performance incentives, and monitoring
                                      plans.
                                  •   Developed monitoring plans for cost, schedule, and
                                      quality.5
                                  •   Created templates for PBC matrices and
                                      performance-based work statements.
                                  •   Issued guidance on implementing an FFP policy.
                                  •   Created a PBC lessons-learned report.
                                  •   Developed a preaward timeline to capture the time it
                                      takes to develop, negotiate, and award PBC task orders.


                                  5
                                   This is based on our review of a sample of seven task orders. See
                                  Appendix I for details on the sample.
                                                                                                 Page 3
         While Many Improvements Have Been Made, Continued Focus Is Needed
  to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                      Contracting

                                  •          Trained IRS and PRIME contractor personnel in the
                                             implementation of the FFP policy.
                                  •          Established a BSM Acquisition Executive, now known
                                             as the Procurement Modernization Executive.
                                  •          Established plans to hire 13 additional staff years to
                                             support BSM acquisitions.
                                  •          Increased use of combined full and partial FFP task
                                             orders from 31 percent in Fiscal Year (FY) 2003 to
                                             45 percent in FY 2004 (see Figure 1).
                                                            Figure 1: FFP Task Orders by Fiscal Year6
                                                   60.00%

                                                   50.00%

                                                   40.00%
                                      Percentage




                                                                                              FFP (Full and Partial)
                                                   30.00%
                                                                                              Trend
                                                   20.00%

                                                   10.00%

                                                   0.00%
                                                             1999 2000 2001 2002 2003 2004
                                                                      Fiscal Year


                                  Source: TIGTA analysis of Office of Procurement task order list as of
                                  September 26, 2004.

                                  While the BSMO and Office of Procurement continue to
                                  make improvements to fully implement PBC for the BSM
                                  program, further improvements can be made to increase the
                                  use of FFP task orders, provide for more successful contract
                                  negotiations, and ensure improved PBC processes are
                                  followed.
                                  In our prior audit, we recommended the BSMO require the
Barriers Exist to the Increased
                                  use of FFP task orders whenever possible and appropriate
Use of Firm Fixed-Price Task
                                  for projects in development and deployment7 and for any
Orders
                                  other task orders where requirements are clearly identified.
                                  Office of Management and Budget (OMB) guidance also

                                  6
                                    In 2004, there were 11 task orders, including 2 complete FFP and
                                  3 partial FFP task orders. Also, results are subject to change because
                                  FFP sections of the sampled task orders have yet to be determined.
                                  7
                                    See Appendix VII for an overview of the Enterprise Life Cycle.
                                                                                                            Page 4
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                indicates PBC encourages and enables an increased use of
                                FFP contracts and incentives to encourage optimal
                                performance. In addition, the IRS released FFP guidance in
                                September 2003 and April 2004. According to the CIO’s
                                FFP policy memorandum, the fixed-price policy is
                                necessary to ensure delivery and performance in the BSM
                                program are increased and the financial risks to the IRS are
                                reduced.
                                While we determined the use of FFP task orders within the
                                BSM program has increased since FY 2001, further
                                increases in their use and sharing of risk between the IRS
                                and the contractors are possible by using hybrid FFP task
                                orders when appropriate, gaining insight into the barriers
                                blocking the increased use of FFP task orders, removing
                                barriers, and using other contracting provisions to share risk
                                with the contractors when use of an FFP task order is not
                                possible.
                                Hybrid FFP task orders can be issued when
                                requirements are clear
                                The Office of Federal Procurement Policy A Guide to Best
                                Practices for Performance-Based Service Contracting
                                states, “When acquiring services that previously have been
                                acquired by contract, agencies should rely on experience,
                                knowledge, and historical data gained from the prior
                                contract to incorporate performance-based service
                                contracting methods. Where appropriate, conversion from
                                cost-reimbursement to fixed-price arrangements should be
                                accomplished.” In addition, the Office of Federal
                                Procurement Policy states PBC should be used to the
                                maximum extent possible, even when the entire contract is
                                not conducive to PBC.
                                In our prior audit, we recommended using FFP for any task
                                orders in which requirements are clearly defined.
                                According to the IRS FFP guidance, “Fixed-price
                                contracting is not necessarily an ‘all-or-nothing’
                                proposition. If specific task requirements suitable for
                                fixed-pricing can be clearly segmented from those that are
                                less suitable, then various hybrid arrangements can be
                                negotiated.” While program-level task orders were not a
                                part of the IRS’ FFP policy, we determined program-level
                                                                                       Page 5
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                task orders should be considered for hybrid FFP task orders,
                                when appropriate.
                                During our review of a sample of program-level task orders,
                                we determined the IRS had contracted for several years for
                                similar services (program management, systems integration,
                                and infrastructure shared services). All of these task orders
                                were cost-reimbursable.8 When cost-reimbursable rather
                                than FFP task orders are used, Office of Procurement and
                                BSMO personnel must focus significant levels of effort
                                tracking cost information. Acquisition personnel explained
                                not all services, while under the same category, are similar
                                from year to year. Another acquisition team stated
                                segments of their task order could not be written as FFP
                                since the BSMO needed the flexibility to move funds on and
                                off the task order due to budget problems.
                                Management Action: In October 2004, we presented our
                                interim results to BSMO officials and suggested considering
                                hybrid, or partial, FFP task orders in the future for recurring
                                services. The Deputy Associate CIO, Systems Integration,
                                replied his team was working on this for a future
                                infrastructure task order. In January 2005, we were
                                informed the IRS would be taking on some of the
                                program-level tasks that have to date been performed by the
                                PRIME contractor. This could have an impact on future
                                plans to create hybrid FFP task orders for program-level
                                activities.
                                Barriers are preventing increased use of FFP task orders
                                The Federal Acquisition Regulation (FAR) section on
                                service contracting9 indicates an FFP performance-based
                                contract is the preferred contract type. In addition, the
                                CIO’s FFP policy recommends BSM task orders for system
                                development projects in Milestones 4 and 510 be fixed-price.
                                We determined barriers were preventing the BSMO and
                                Office of Procurement from negotiating more FFP task
                                orders for the BSM program.

                                8
                                  Cost-reimbursable types of contracts provide for payment of allowable
                                incurred costs, to the extent prescribed in the contract.
                                9
                                  48 C.F.R. § 37.602-4 (2001).
                                10
                                   See Appendix VII for an overview of the Enterprise Life Cycle.
                                                                                               Page 6
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                The FAR11 requires a justification to be documented when a
                                contract type, other than FFP, is chosen. Because none of
                                the seven task orders in our sample were completely FFP,
                                we reviewed all seven justifications. We determined the
                                information included in the justifications did not always
                                provide insight as to why FFP was not chosen. Since
                                adequate details could not always be found in the
                                justifications, we reviewed the task orders and interviewed
                                acquisition officials. We determined FFP was not always
                                being used because of the following barriers:
                                •      System requirements and business processes were not
                                       stable.
                                •      Negotiations were schedule driven.
                                •      Negotiations and contract performance relied on
                                       multiple contract vehicles or were dependent on multiple
                                       projects.
                                •      Funding was not stable.
                                As mentioned previously, when cost-reimbursable rather
                                than FFP task orders are used, Office of Procurement and
                                BSMO personnel must focus significant levels of effort
                                tracking cost information.
                                Other task order provisions can be used to balance risk
                                with the contractor
                                The FAR12 states the contractor assumes the most risk when
                                operating under an FFP contract with great uncertainty and
                                assumes the least risk when being reimbursed those costs
                                determined to be allocable and allowable. When use of an
                                FFP task order was not possible due to some of the barriers
                                mentioned previously, we found the IRS had begun using
                                provisions that could better share risk between it and the
                                contractor. However, we determined these provisions were
                                not used consistently.
                                We reviewed a sample of seven task orders and found
                                several task orders included positive incentives for


                                11
                                     48 C.F.R. §§ 16.103, 16.301-2, and 16.4 (Amended January 2005).
                                12
                                     48 C.F.R. § 15.404-4 (d)(ii)(B) (Amended January 2005).
                                                                                               Page 7
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                improved contractor performance. We identified little use
                                of any negative incentives for poor performance, other than
                                not receiving positive incentives for good performance. In
                                addition to rewards for good performance, the Office of
                                Federal Procurement Policy recommends the use of quality
                                assurance deduction schedules.13
                                We also identified some contracting provisions that attempt
                                to balance risk between the IRS and the contractor, even
                                when an FFP task order is not being used. For example, the
                                IRS and the PRIME contractor negotiated a modification to
                                the contract for the Integrated Financial System (IFS)14 in
                                July 2004. Due to poor performance by the contractor, the
                                task order was modified to allow for cost sharing (additional
                                costs are only partially reimbursed by the IRS). The
                                contract was also modified to a cost-plus-fixed-fee
                                completion type for the segment of work requiring the
                                delivery of the system. According to the FAR,15 the
                                completion type describes the scope of work by stating a
                                definite goal or target and specifying an end product. This
                                means the contractor must make every effort to deliver the
                                end product within the estimated cost.
                                When the contractor does not bear enough risk under a task
                                order, the contractor does not have an incentive to perform
                                well. One of the reasons for the inconsistent use of
                                risk-balancing provisions is the IRS has stated in the past it
                                did not believe the use of negative incentives would
                                necessarily ensure more timely delivery of projects and
                                further believed the use of negative incentives would lead to
                                an adversarial relationship between the IRS and PRIME
                                contractor.
                                Management Action: The Associate CIO, BSM, has
                                established 7 high-level key focus areas and developed
                                16 detailed high-priority issues to improve the BSM


                                13
                                   If a task is not performed to the acceptable quality level stated in the
                                quality standards of the contract, deductions should be computed based
                                upon tables or formulas designed to reflect the value of substandard
                                output.
                                14
                                   See Appendix I for a list of BSM projects and associated descriptions
                                from our sample of task orders.
                                15
                                   48 C.F.R. § 16.306 (2001).
                                                                                                   Page 8
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                program. One of the key focus areas is contract
                                management. The Associate CIO, BSM, agreed risk needed
                                to be better balanced with the PRIME contractor and
                                believed the use of FFP was not always the answer.

                                Recommendation

                                To further balance risk between the IRS and the
                                modernization contractors, the CIO should:
                                1. Continue to increase the use of FFP task orders and
                                   other risk-sharing provisions for both project- and
                                   program-level activities by:
                                    a. Using hybrid FFP task orders, when appropriate.
                                    b. Providing additional details to support the selection
                                       of non-FFP contract types.
                                    c. Removing barriers to FFP task orders (e.g., defining
                                       and stabilizing system requirements and business
                                       processes earlier in the life cycle).
                                    d. Determining if there are other provisions, such as
                                       use of completion type contracts and quality
                                       assurance deduction schedules, which can be used to
                                       balance the risk appropriately between all parties,
                                       when use of FFP task orders is not possible.
                                Management’s Response: To further balance risk between
                                the IRS and the modernization contractors, the CIO stated
                                the IRS has issued FFP guidance. In addition, the IRS will
                                continue to consider FFP contracting, address stabilizing
                                requirements, and explore options to balance risk when FFP
                                is not appropriate.
                                Office of Audit Comment: While the CIO agreed with this
                                recommendation, we are concerned three of the stated
                                corrective actions have not corrected the issues and one of
                                the corrective actions indicates the action is complete
                                although the corrective action has not yet been
                                implemented. Our specific comments on the four corrective
                                actions labeled 1A through 1D are itemized below.
                                •   1A – The IRS states it completed the corrective action to
                                    use hybrid FFP task orders when appropriate by issuing
                                                                                       Page 9
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                    FFP guidance on April 30, 2004. As stated in this
                                    report, program-level task orders are not covered by the
                                    FFP guidance and program-level task orders should be
                                    considered for hybrid FFP task orders, when
                                    appropriate. Therefore, we do not believe the stated
                                    corrective action has corrected the identified issue.
                                •   1B – The IRS states it completed the corrective action
                                    for providing additional details to support the selection
                                    of non-FFP contract types on April 30, 2004, by issuing
                                    FFP guidance and continuing to document contract type
                                    determinations in accordance with the FAR. Our
                                    concern was not with a lack of documenting contract
                                    type determinations, but with a lack of detailed
                                    documentation supporting the determinations.
                                    Therefore, we do not believe the stated corrective action
                                    has corrected the identified issue.
                                •   1C – The IRS states it addressed stabilizing
                                    requirements by issuing FFP guidance on
                                    April 30, 2004. Our concern is the Associate CIO,
                                    BSM, has identified a highest priority initiative of
                                    “Requirements and Demand Management” for the
                                    period March through September 2005 to control the
                                    scope of modernization requirements. Since corrective
                                    actions are ongoing, we do not believe this issue has
                                    been corrected as indicated by the stated implementation
                                    date.
                                •   1D – The IRS states it will address balancing risk
                                    between all parties when FFP is not possible by
                                    continuing work to explore options to balance risk and
                                    continuing to perform PBC compliance reviews. In
                                    addition, the IRS commented the IFS task order
                                    included a cost-sharing approach with the PRIME
                                    contractor beginning on May 1, 2004. As stated in this
                                    report, we also identified the modification of the IFS
                                    task order as an example where the IRS balanced risk
                                    with the PRIME contractor. However, we also
                                    determined provisions that could better share risk
                                    between the IRS and the contractor were not used
                                    consistently. For example, we identified little use of any
                                    negative incentives for poor performance, other than not
                                                                                      Page 10
         While Many Improvements Have Been Made, Continued Focus Is Needed
  to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                      Contracting

                                       receiving positive incentives for good performance. In
                                       addition to rewards for good performance, the Office of
                                       Federal Procurement Policy recommends the use of
                                       quality assurance deduction schedules. Since the
                                       corrective action does not provide a specific action
                                       being taken, other than continuing actions and the IFS
                                       cost sharing approach, we are concerned the corrective
                                       action may not correct the identified issue.
                                  We determined the BSMO and Office of Procurement were
Contract Negotiations Are Not
                                  not always following best practices during contract
Consistently Following Best
                                  negotiations. Using a sample of seven task orders, we
Practices
                                  reviewed available contract negotiation documentation and
                                  interviewed acquisition personnel associated with each task
                                  order. We compared the results of our interviews and
                                  documentation reviews with 10 contract negotiations best
                                  practices. Figure 2 provides a summary of our results (see
                                  Appendix VIII for additional details).
                                  Figure 2: Application of Contract Negotiation Best Practices
                                                                                               Partially
                                  Number Best Practice                          Followed       Followed
                                         Alpha contracting16
                                    1    methods should be                                          X
                                         considered.
                                         All stakeholders should be
                                    2                                                               X
                                         present for negotiations.
                                         Memoranda of
                                    3    understanding should be                                    X
                                         prepared.
                                         Independent Federal
                                    4    Government cost estimates                                  X
                                         should be obtained.
                                         Cost and price analyses
                                    5                                               X
                                         should be conducted.
                                         Technical and cost
                                    6    evaluations should be                      X
                                         conducted.


                                  16
                                     Alpha contracting is a technique that uses a team approach to prepare,
                                  evaluate, and award proposals in substantially less time than the
                                  traditional approach. Cost and technical detail are jointly developed to
                                  bypass solicitation and proposal to produce a “model contract.” The
                                  team then adjusts the model contract to lower cost and risk.
                                                                                                  Page 11
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                                                                             Partially
                                Number Best Practice                          Followed       Followed
                                       Cost and schedule
                                   7   estimates should be                        X
                                       reviewed.17
                                       Issues matrices should be
                                   8                                                              X
                                       prepared.
                                       Negotiation priorities
                                   9                                                              X
                                       should be documented.
                                       Negotiation strategies
                                  10                                                              X
                                       should be documented.
                                Source: TIGTA comparison for seven sampled task orders against best
                                practices (IRS’ PBC Lessons Learned and Best Practices Summary and
                                Analysis, Defense Procurement and Acquisition Policy Best Practices,
                                World-Class Contracting 100+ Best Practices for Building Successful
                                Business Relationships, and Office of Federal Procurement Policy A
                                Guide to Best Practices for Performance-Based Service Contracting).

                                The following sections present details concerning best
                                practices that were not consistently adhered to.
                                Alpha contracting methods should be considered
                                Alpha contracting is a proven approach to reducing
                                administrative lead time, reducing costs, and improving
                                both the negotiated agreement and the probability of success
                                of the resulting contract. Five of the seven sampled task
                                orders did not use alpha contracting methods. Two task
                                orders used a modified alpha contracting approach. One
                                team that used the approach more fully stated the approach
                                had led to a better task order for both the IRS and the
                                contractor. This team also stated it was able to use alpha
                                contracting methods because the Contracting Officer had
                                been trained on using alpha contracting methods at the
                                Department of Defense. An Office of Procurement official
                                stated other teams may not be trained in alpha contracting
                                methods and therefore are unable to use them. Without
                                considering alpha contracting methods, the IRS may take
                                longer to negotiate task orders and negotiate less than
                                optimal task orders.



                                17
                                  Cost and schedule estimate procedures apply only to projects.
                                Therefore, this best practice applied to only four of our seven sampled
                                task orders.
                                                                                                Page 12
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                Management Action: In January 2005, the Procurement
                                Modernization Executive informed us alpha contracting
                                methods had mixed results over the past year. We were also
                                provided with a list of FY 2005 commitments. One of the
                                commitments was to “assess ‘modified alpha’ lessons
                                learned to determine feasibility of broader application
                                throughout BSM project acquisitions.”
                                All stakeholders should be present for negotiations
                                The IRS’ PBC Lessons Learned and Best Practices
                                Summary and Analysis report states integrated project teams
                                should be established to ensure multidisciplinary
                                participation and involvement of stakeholders. One of the
                                seven sampled task orders did not have all stakeholders
                                present during negotiation sessions.18 The Associate CIO,
                                BSM, stated this was happening because an integrated
                                approach to negotiations was not always being followed. If
                                key stakeholders are not present, negotiation objectives may
                                not be achieved or negotiations may take longer due to all
                                disciplines not being in attendance.
                                Management Action: The Associate CIO, BSM, has
                                established 7 high-level key focus areas and developed
                                16 detailed high-priority issues to improve the BSM
                                program. One of the high-priority issues is to “strengthen
                                [the] negotiation process through establishment of
                                negotiating teams and use of performance-based contracting
                                techniques.”
                                Memoranda of understanding should be prepared
                                Best practices require the contract agreement to be
                                documented throughout the process. The IRS requires the
                                creation of a memorandum of understanding (MOU) to
                                document the work to be performed and the constraints
                                imposed on each task order prior to the start of proposal
                                development. In two of the seven sampled task orders, the
                                teams did not prepare MOUs for their projects. One
                                acquisition team stated it did not prepare an MOU because


                                18
                                  All negotiation sessions were not documented. Therefore, we could
                                not determine if all stakeholders were consistently present during
                                negotiations.
                                                                                            Page 13
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                its project was not part of the PRIME contract. The other
                                acquisition team had contracted for the same activities for
                                several years. By not preparing an MOU, parties may not
                                begin the task order process with a mutual understanding of
                                the work to be performed and any associated constraints.
                                Independent Federal Government cost estimates should
                                be obtained
                                The FAR19 requires the initial negotiation position to be
                                based on the results of the contracting officer’s analysis of
                                the offeror’s proposal, taking into consideration technical
                                analysis, fact-finding results, and independent Federal
                                Government cost estimates (IGCE). The Defense
                                Procurement and Acquisition Policy Best Practices report
                                states, “well-documented IGCEs provide contracting
                                officers with essential program knowledge needed to
                                evaluate and negotiate contract proposals. Poor IGCEs can
                                sub-optimize a program, waste resources, and may lead to
                                contractor failure or default.”
                                Six of the seven sampled task orders did not obtain an
                                IGCE. As a result, the IRS may not be obtaining requested
                                services at a fair and reasonable cost. IGCEs were not
                                developed because they were not required by BSM
                                processes.
                                Management Action: In January 2005, the Office of
                                Procurement provided us with a list of FY 2005
                                commitments. Two of the commitments are to “develop
                                and issue IGCE template and guidance” and “revise BSMO
                                processes to include [an] IGCE requirement.”
                                Issues matrices should be prepared
                                The Office of Federal Procurement Policy A Guide to Best
                                Practices for Performance-Based Service Contracting
                                suggests issue resolution be included as part of the contract
                                negotiation process. Also, the IRS has developed
                                procedures to fully use verbal and written communications




                                19
                                     48 C.F.R. § 15.406-1 (a) (2001).
                                                                                      Page 14
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                for all issues related to the contract. We determined these
                                communications often take the form of an issues matrix.20
                                One of the seven sampled task orders did not include a
                                prepared issues matrix. Acquisition personnel stated they
                                did not prepare an issues matrix because they were not part
                                of the PRIME program. If issues are not tracked to
                                resolution, issues may not be resolved.
                                Negotiation priorities should be documented
                                The Defense Procurement and Acquisition Policy Best
                                Practices report requires priorities to be documented prior
                                to negotiations. One of the seven sampled task orders did
                                not include documentation of their negotiation priorities. If
                                negotiation priorities are not established and documented, it
                                is difficult to determine what negotiation items to focus
                                upon. Negotiation priorities were not documented because
                                this action was not required by BSM processes.
                                Management Action: In January 2005, the Office of
                                Procurement provided us with a list of FY 2005
                                commitments. One commitment is to “enhance pre-award
                                planning tools and processes based on FY 04 [2004] lessons
                                learned.”
                                Negotiation strategies should be documented
                                Best practices require selecting a negotiation strategy prior
                                to contract negotiations. Six of the seven sampled task
                                orders did not include documentation of a negotiation
                                strategy. Without establishing a negotiation strategy, the
                                acquisition team may not have an overall framework to
                                guide negotiations and may not achieve desired contracting
                                results. Negotiation strategies were not documented
                                because this action was not required by BSM processes.
                                Management Action: In January 2005, the Office of
                                Procurement provided us with a list of FY 2005
                                commitments. One commitment is to “enhance pre-award
                                planning tools and processes based on FY 04 [2004] lessons
                                learned.”


                                20
                                  Issues matrices include any issues identified during reviews of
                                contractor proposals and how the issues were resolved.
                                                                                               Page 15
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                Recommendation

                                As part of the ongoing effort to improve preaward planning
                                and processes, the CIO and the Chief, Agency-Wide Shared
                                Services (AWSS), should:
                                2. Implement contract negotiation procedures to promote
                                   consistent application of best practices, such as:
                                    a. Considering alpha contracting, when applicable.
                                    b. Ensuring all key stakeholders are present at contract
                                       negotiation meetings.
                                    c. Obtaining IGCEs.
                                    d. Consistently preparing MOUs and issues matrices.
                                    e. Documenting negotiation priorities.
                                    f. Documenting negotiation strategies.
                                Management’s Response: To improve preaward planning
                                and processes, the IRS will assess alpha contracting to
                                determine feasibility for broader application. The CIO also
                                stated the IRS has implemented a negotiation process to
                                include all stakeholders in negotiations, drafted an IGCE
                                template and procedure, issued a procedure to ensure MOUs
                                are negotiated, contracted with an independent firm to
                                prepare an IGCE for the Modernized e-File project, and will
                                continue to determine negotiation priorities and strategies.
                                Office of Audit Comment: While the CIO agreed with this
                                recommendation, we could not confirm whether two of the
                                stated corrective actions have corrected the issues. Our
                                specific comments on the two corrective actions labeled 2E
                                and 2F are itemized below.
                                •   2E – The IRS states it completed the corrective action to
                                    document negotiation priorities on November 3, 2004,
                                    by documenting negotiation issues and determining
                                    negotiation priorities in the Price Negotiation
                                    Memorandum in accordance with the operating
                                    instructions entitled “Documentation.” As stated in this
                                    report, we communicated the interim results of our
                                    review, as well as suggestions for improvement, to the
                                    BSMO in October 2004. We were not provided, and did
                                                                                     Page 16
         While Many Improvements Have Been Made, Continued Focus Is Needed
  to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                      Contracting

                                      not consider, instructions entitled “Documentation.”
                                      Therefore, we were unable to confirm during the audit
                                      whether the stated corrective action has corrected the
                                      issue.
                                  •   2F – The IRS states it completed the corrective action to
                                      document negotiation strategies on November 3, 2004,
                                      by documenting negotiation issues and determining
                                      negotiation strategies in the Price Negotiation
                                      Memorandum in accordance with the operating
                                      instructions entitled “Documentation.” As stated in this
                                      report, we communicated the interim results of our
                                      review, as well as suggestions for improvement, to the
                                      BSMO in October 2004. We were not provided, and did
                                      not consider, instructions entitled “Documentation.”
                                      Therefore, we were unable to confirm during the audit
                                      whether the stated corrective action has corrected the
                                      issue.
                                  In FY 2003, the IRS revised and improved PBC guidance.
Performance-Based Contracting
                                  In FY 2004, the IRS focused on monitoring implementation
Improvements Have Produced
                                  of the PBC guidance. However, PBC improvements have
Mixed Results
                                  produced mixed results as the BSM program has struggled
                                  to institute revised PBC processes.
                                  Jefferson Solutions performed a review of PBC guidance
                                  implementation and assigned green, yellow, and red codes
                                  according to how well acquisition personnel were doing in
                                  complying with PBC guidance. Figure 3 shows the results
                                  of Jefferson Solutions’ FY 2004 review.




                                                                                       Page 17
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                             Figure 3: Compliance With PBC Guidance
                                                                        Compliance             Color
                                         Measurement                    Percentage             Codes
                                Conformance of statements of
                                work to applicable template                 80%               Yellow21
                                and guidance.
                                Linkage of PBC performance
                                standards with incentives and                0%                Red22
                                disincentives.
                                Conformance of monitoring
                                plans to applicable template               51.8%               Red23
                                and guidance.
                                Monitoring conforms to
                                                                            74%               Yellow24
                                approved plan.
                                Progress in moving to
                                                                           37.5%              Yellow25
                                fixed-price task orders.
                                Source: Jefferson Solutions document entitled, Assessment of IRS
                                Efforts to Enhance the Use of Performance-Based Contracting
                                Techniques in the Modernization Program, dated September 30, 2004.

                                We also determined PBC improvements have not been
                                completely effective.
                                Performance standards are numerous and not always
                                measurable
                                Guidance from the OMB on implementing PBC indicates a
                                measurable performance standard and an acceptable quality
                                level26 are needed for each output in the Performance-Based
                                Work Statement. In our prior audit, we determined there

                                21
                                   A yellow rating denotes 70 to 89 percent of work statements reviewed
                                conformed to the applicable template and guidance.
                                22
                                   A red rating denotes less than 70 percent of the Milestone 4/5 task
                                orders reviewed link performance standards/acceptable quality levels to
                                incentives/disincentives. See Appendix VII for an overview of the
                                Enterprise Life Cycle, which contains an explanation of milestones.
                                23
                                   A red rating denotes less than 70 percent of monitoring plans
                                reviewed conformed to the applicable template and guidance.
                                24
                                   A yellow rating denotes 70 to 89 percent of monitoring
                                documentation for each task order conformed to the approved plan.
                                25
                                   A yellow rating denotes 25 to 49 percent of Milestone 4/5 work is
                                issued on a fixed-price basis and the remainder is properly justified and
                                approved. See Appendix VII for an overview of the Enterprise Life
                                Cycle, which contains an explanation of milestones.
                                26
                                   Acceptable quality level is an allowable deviation from the
                                performance standard.
                                                                                                Page 18
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                was a great disparity among the number of performance
                                standards in task orders and determined attempting to
                                monitor large numbers of performance standards was not an
                                efficient use of the BSMO’s limited resources. We also
                                found the performance standards and acceptable quality
                                levels documented in the PBC work statements were not
                                consistently measurable. We recommended the BSMO
                                provide additional guidance and useful examples to
                                procurement and project personnel on developing
                                measurable performance standards.
                                On September 30, 2003, the BSMO and Office of
                                Procurement issued revised guidance for procurement and
                                project personnel in developing measurable performance
                                standards. To determine if the issuance of guidance had
                                resulted in improvements, we reviewed three project task
                                orders in our sample.27 We determined the BSMO is still
                                struggling to prepare a manageable number of performance
                                measures. Figure 4 shows the number of performance
                                standards identified in our prior audit is comparable to the
                                number of performance standards found in our current
                                sample.
                                                                   Figure 4: Number of Performance Standards

                                                             120
                                                                                101
                                                                                                       95
                                     Performance Standards




                                                             100

                                                             80
                                                                                                                 Low
                                                             60
                                                                                                                 High
                                                             40
                                                                                              23
                                                             20         14

                                                              0
                                                                       Previous Audit         Current Audit

                                Source: TIGTA analysis of three BSM project task orders.

                                We also determined the performance standards documented
                                in the PBC work statements were not always measurable.

                                27
                                  Only project task orders were reviewed for comparison purposes. A
                                fourth project task order was in our sample. However, it had not been
                                defined. Therefore, we were able to review only three project task
                                orders.
                                                                                                               Page 19
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                For example, some performance measures could not be
                                quantified, such as “PRIME personnel are knowledgeable
                                about the TMR [transition management repository]. . . .”
                                Other performance measures were vague and could be
                                improved, such as “achieve Release 1.1 milestone 4 LCSR
                                [life cycle stage review] life cycle gate.”
                                As indicated in our prior audit, project personnel have
                                struggled to develop measurable performance standards in
                                certain areas, and developing these standards is a
                                time-consuming process. Without a reasonable number of
                                measurable performance standards, it is more difficult to
                                monitor and measure the contractor’s performance.
                                Incentives were not directly correlated to performance
                                standards or monitoring plans
                                In our prior audit, we determined monitoring results did not
                                always address the contractor’s achievement of or failure to
                                meet performance standards. This information is not only
                                crucial in holding contractors accountable for meeting
                                performance standards but also for providing necessary
                                support for the payment or nonpayment of types of incentive
                                or award fees. As a result, we recommended monitoring
                                results be documented and compiled for each task order.
                                We also recommended the BSMO require the development
                                of balanced quality, schedule, and cost incentives.
                                In response to our recommendations, the BSMO and Office
                                of Procurement revised task order development and
                                monitoring guidance. To determine if the issuance of
                                guidance had resulted in the intended improvements, we
                                reviewed incentives within task orders to determine if they
                                correlated with what was being measured in the
                                performance standards and monitoring plans. We
                                determined two of three sampled task orders with award or
                                incentive fees did not have a direct correlation between what
                                was being measured and the award/incentive fee. Jefferson
                                Solutions also concluded there was no linkage between
                                incentive fees and performance standards for one of the task
                                orders in our sample.
                                If the IRS does not correlate what is being measured with
                                award and incentive fees, it may use subjective methods to

                                                                                     Page 20
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                award the contractor, rather than documented measurable
                                results. The one task order that did correlate an incentive
                                fee with what was being measured had previously been
                                involved in a pilot PBC improvement pilot. Therefore, we
                                determined lack of experience with new procedures caused
                                the other two acquisition teams to not directly correlate
                                measurements with awards/incentives.
                                Performance monitoring results were not always
                                documented
                                In our prior audit, we determined performance monitoring
                                results were not always adequately documented. For
                                example, one task order did not provide any monitoring
                                results, and three others provided documentation that was
                                either not complete or did not include the dates of
                                monitoring. As a result, we recommended the BSMO
                                ensure monitoring results are documented and PRIME
                                contractor performance data are compiled for each task
                                order.
                                We requested key documentation being used to document
                                monitoring of cost, schedule, and quality for our sampled
                                task orders. The documentation did not provide adequate
                                support of consistent monitoring of the contractor. In
                                addition, we noted that, as part of its assessment, Jefferson
                                Solutions reviewed six task orders, which included four of
                                our seven sampled task orders. Jefferson Solutions
                                determined 74 percent of monitoring documentation was in
                                full or partial compliance with monitoring plans. While this
                                is an improvement from our prior audit results, more work
                                is needed to reach a green rating signifying 90 percent of
                                monitoring documentation conforms to the approved
                                monitoring plan. Jefferson Solutions concluded additional
                                monitoring and just-in-time training was needed to increase
                                compliance with PBC practices. Without sufficient methods
                                to monitor contractor performance, monitoring efforts may
                                not result in improvements in cost effectiveness and quality
                                of performance.




                                                                                     Page 21
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                Sufficient time is not always allowed for developing,
                                negotiating, and awarding PBC task orders
                                In our prior audit, we recommended the BSMO analyze the
                                time required to develop and negotiate strong PBC task
                                orders and monitoring plans and build that time into the
                                project schedules and processes. The Office of Procurement
                                used a sample of task orders to determine the mean28 amount
                                of time to develop, negotiate, and award both program- and
                                project-level task orders, as well as an adjustment factor to
                                account for differences between task orders.
                                To determine if acquisition personnel were using these data
                                to build time into their project schedules, we reviewed the
                                project schedules for five of our seven sampled task
                                orders.29 Figure 5 shows the five task orders reviewed; the
                                mean amount of time needed to develop, negotiate, and
                                award a PBC task order according to Office of Procurement
                                data; and the amount of time allotted to develop, negotiate,
                                and award task orders in the project schedules.




                                28
                                   A “mean” is one method of calculating an average by dividing the
                                sum of a set of values by the number of values. The Office of
                                Procurement computes the mean using the following formula:
                                Mean=(Most Pessimistic Estimate+4(Most Likely Estimate)+Most
                                Optimistic Estimate)/6.
                                29
                                   Two of our sampled task orders did not include negotiation
                                information in the project schedules.
                                                                                              Page 22
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                     Figure 5: Amount of Time Allotted to Develop, Negotiate, and
                                                        Award Task Orders

                                                               Mean Amount          Time Allotted to
                                                              of Time Needed            Develop,
                                                                 to Develop,         Negotiate, and
                                                               Negotiate, and         Award Task
                                                                Award Task           Orders in the
                                       Task Order                  Orders           Project Schedule
                                Program Management
                                                                   127 days               65 days
                                Office
                                Systems Integration                127 days               34 days
                                Customer Account Data
                                Engine                             173 days              128 days
                                Release 1.2
                                Integrated Financial
                                                                   173 days              125 days
                                System
                                Modernized e-File                  173 days               63 days
                                Source: TIGTA comparison of Preaward Timeline – What We’ve
                                Learned From The Program Level Task Orders and Acquisition
                                Planning Improvement Preaward Timeline data with project schedules.

                                We determined all five task orders did not budget an amount
                                of time to develop, negotiate, and award task orders
                                consistent with the mean amount of time needed to
                                accomplish these tasks.
                                For the two program-level task orders, the respective
                                Contracting Officers explained the acquisition teams were
                                planning to negotiate an extension to the current task order
                                and believed a less than normal amount of time would be
                                needed for negotiation.
                                For the three project task orders, the Office of Procurement
                                data were not available to the acquisition teams prior to
                                estimating the time needed to develop, negotiate, and award
                                the respective PBC task orders. As a result, we estimate the
                                IRS may spend approximately $268,00030 on the additional
                                staff time needed to develop, negotiate, and award task




                                30
                                  This is a conservative estimate. If any adjustment factors were used,
                                the time scheduled to develop, negotiate, and award the task orders
                                could have been longer than the mean time.
                                                                                               Page 23
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                orders over the amount of staff time allocated to complete
                                these tasks (see Appendix IV).31
                                Management Action: In response to Jefferson Solutions’
                                findings regarding the need to improve compliance with
                                PBC guidance, the IRS plans in FY 2005 to provide “just in
                                time” training to integrated project teams that are
                                developing task orders, perform semiannual assessments of
                                IRS compliance with PBC guidance, and perform other
                                activities needed to increase compliance with PBC
                                guidelines.
                                Most task orders continue to be defined in a shorter
                                period of time; however, one task order was not timely
                                defined
                                The FAR32 requires the definitization33 of a letter task order34
                                to be within 180 days of task order issuance or before
                                completion of 40 percent of the work to be performed,
                                whichever occurs first. If the task order can not be
                                definitized within 180 days, the contracting officer should
                                obtain approval from the head of the contracting office to
                                continue negotiations.
                                In our prior audit, we determined the BSMO and the
                                PRIME contractor had worked diligently to shorten the
                                length of time it takes to determine the specific requirements
                                and associated costs and to definitize them in a task order.
                                The average time to definitize had been reduced from
                                384 days to 90 days.
                                We reviewed the three PRIME contract project task orders
                                in our sample and determined one was definitized before
                                work began on the current milestone and another was
                                definitized within 69 days. In October 2004, we determined


                                31
                                   All cost information was not available. As a result, the estimates we
                                developed are very conservative.
                                32
                                   48 C.F.R. § 16.603-2 (2001).
                                33
                                   Undefinitized task orders are those in which the contractor has been
                                authorized to begin work, but the cost of the work has only been
                                proposed and not negotiated.
                                34
                                   A letter task order is a written preliminary contractual instrument that
                                authorizes the contractor to commence work immediately. A letter task
                                order must be superseded by a definitive contract.
                                                                                                  Page 24
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                the third task order had exceeded the 180-day threshold and
                                recommended the task order be definitized as soon as
                                possible. We later determined an extension had not been
                                requested to continue negotiations beyond 180 days.
                                When task orders are not definitized quickly, the IRS’
                                negotiating position is diminished as work is completed
                                under an undefinitized task order, since the contractor must
                                be reimbursed for allowable costs incurred. Therefore, the
                                contractor has little incentive to quickly negotiate the terms
                                and conditions. The Contracting Officer responded
                                definitization was not achieved timely due to scope issues,
                                and an extension had not been requested due to lack of
                                staffing.
                                Management Action: The Modernized e-File task order was
                                definitized in November 2004, resulting in a cost savings of
                                $825,164 (see Appendix IV). Since the IRS definitized the
                                task order as recommended, we are making no additional
                                recommendations in this area.

                                Recommendation

                                As part of the ongoing effort to improve compliance with
                                revised PBC guidance, the CIO and the Chief, AWSS,
                                should:
                                3. Ensure the BSM program more fully realizes the
                                   potential of PBC by:
                                   a. Developing a reasonable number of measurable
                                      performance standards.
                                   b. Ensuring performance standards and monitoring
                                      plans are linked to awards and incentives, when
                                      appropriate.
                                   c. Documenting the results of the contractor’s
                                      performance.
                                   d. Allowing adequate time for negotiation activities.
                                Management’s Response: To improve compliance with
                                revised PBC guidance, the CIO stated the IRS has issued
                                statements of work templates containing measurable
                                performance standards and distributed historical data for all
                                                                                       Page 25
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                preaward activities. Also, the Office of Procurement will
                                continue to perform quality reviews of statements of work
                                and monitoring plans, and an independent review
                                organization will conduct formal reviews of the statements
                                of work, monitoring plans, and monitoring artifacts twice
                                yearly. Lastly, PBC training will be scheduled and lessons
                                learned will be posted.
                                Office of Audit Comment: While the CIO agreed with this
                                recommendation, we are concerned three of the stated
                                corrective actions have not corrected the problems and one
                                corrective action includes an incorrect implementation date.
                                Our specific comments on the four corrective actions
                                labeled 3A through 3D are itemized below.
                                •   3A – The IRS states it completed the corrective action to
                                    develop a reasonable number of measurable
                                    performance standards on August 26, 2003, by issuing
                                    statement of work templates containing measurable
                                    performance standards. The IRS also states it will
                                    continue to perform quality reviews and document
                                    lessons learned. As stated in this report, we determined
                                    the BSMO was still struggling to prepare a manageable
                                    number of performance measures. Also, we provided
                                    examples of PBC work statements that were not always
                                    measurable. These issues were developed after August
                                    2003. Therefore, we do not believe the stated corrective
                                    action has corrected the identified issue.
                                •   3B – The IRS states it completed the corrective action to
                                    ensure performance standards and monitoring plans are
                                    linked to awards and incentives on August 23, 2003, by
                                    issuing statement of work and monitoring plan
                                    templates. The IRS also states it will continue to
                                    perform quality reviews and document lessons learned.
                                    As stated in this report, Jefferson Solutions (an
                                    independent reviewer) reported on September 30, 2004,
                                    that none of the task orders it reviewed linked
                                    performance standards with incentives. Similarly, we
                                    determined two of three sampled task orders with award
                                    or incentive fees did not have a direct correlation
                                    between what was being measured and the
                                    award/incentive fee. These issues were developed after
                                                                                     Page 26
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                    August 2003. Therefore, we do not believe the stated
                                    corrective action has corrected the identified issue.
                                •   3C – The IRS states it completed the corrective action to
                                    document the results of the contractor’s performance on
                                    October 1, 2004, by having an independent contractor
                                    continue to perform semi-annual reviews of task order
                                    monitoring plans and monitoring artifacts. The IRS also
                                    states it will continue to document lessons learned. As
                                    stated in this report, the documentation we reviewed did
                                    not provide adequate support of consistent monitoring of
                                    the contractor. In addition, we noted that, as part of its
                                    assessment, Jefferson Solutions reviewed six task
                                    orders, which included four of our seven sampled task
                                    orders. Jefferson Solutions determined 74 percent of
                                    monitoring documentation was in full or partial
                                    compliance with monitoring plans. Jefferson Solutions
                                    concluded, in a report dated September 30, 2004,
                                    additional monitoring and just-in-time training was
                                    needed to increase compliance with PBC practices. The
                                    CIO stated earlier in the response that the IRS had
                                    contracted for additional PBC overview and
                                    performance monitoring training in March 2005;
                                    however, this action was not specifically reported as a
                                    corrective action to this issue. Since the IRS’ stated
                                    corrective action was 1 day after the September 2004
                                    Jefferson Solutions report, we do not believe the stated
                                    corrective action has corrected the identified issue.
                                •   3D – The IRS states it completed the corrective action to
                                    allow adequate time for negotiation activities on
                                    March 22, 2004, by publishing historical data regarding
                                    scheduled and actual time for all preaward activities,
                                    including negotiations. While program level historical
                                    data regarding scheduled and actual time for all
                                    preaward activities was published in early 2004, project
                                    level data was not published until August 2004.
                                    Therefore, we do not believe the stated implementation
                                    date is correct.




                                                                                      Page 27
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) had established and was following adequate contract negotiation and contract management
practices for the Business Systems Modernization (BSM) program. As part of this objective, we
also determined the status of the IRS’ corrective actions to a prior audit.1
To accomplish our objective, we:
 I.       Determined how the contract negotiation, or strategy, sessions were conducted and
          whether they were documented in accordance with best practices.
II.       Determined whether contract management practices the IRS had in place
          (e.g., performance-based contracting (PBC) and firm fixed-price (FFP) policies) were
          being followed by selecting a judgmental sample2 of task orders.
          A. Determined if appropriate corrective actions were being taken to increase the use of
             FFP3 task orders within the BSM program.
          B. Obtained and reviewed Enterprise Life Cycle (ELC)4 and IRS contracting guidance
             to determine if corrective actions were taken based on recommendations from our
             prior audit.
          C. Used the judgmental sample of task orders to determine if the revised procedures for
             developing measurable performance standards were being followed.
          D. Used a sample of project schedules (related to the judgmental sample of task orders)
             to determine if time for building PBC task orders was built into each schedule.
          E.   Used the judgmental sample of task orders to determine if the revised procedures on
               developing balanced quality, schedule, and cost incentives were being followed.
          F.   Used the judgmental sample of task orders (project task orders only) to determine if
               the FFP contract type was chosen, if appropriate.




1
  Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
Modernization Projects (Reference Number 2002-20-170, dated September 2002).
2
  The audit scope includes many references to samples. It should be noted that only one sample was chosen and
used for multiple audit steps (see the Sample Selection Methodology section on the next page).
3
  An FFP task order sets a price that is not subject to any adjustment because of cost overruns incurred by the
contractor.
4
  See Appendix VII for an overview of the ELC.
                                                                                                         Page 28
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

III.      Determined the effectiveness of the process the IRS had in place to properly monitor the
          PRIME contractor’s5 performance.
          A. Used the judgmental sample of task orders to determine if the IRS was following
             revised contract monitoring policies and procedures for developing monitoring
             plans.
          B. Used the judgmental sample of task orders to determine if monitoring results were
             documented.
          C. Used the judgmental sample of task orders to determine if monitoring plans allowed
             for monitoring of balanced incentives.
          D. Determined if an executive-level BSM acquisitions officer position had been
             appointed and selected.
Sample Selection Methodology
We selected a sample of 7 (47 percent) current program- and project-level task orders from the
total population of 15 BSM 2004 active task orders. We judgmentally selected the seven task
orders because we wanted to focus on a combination of program- and project-level task orders,
and we were not going to project the results to the entire population.
The seven task orders selected included four project-level task orders (Customer Account Data
Engine Release 1.2 (CADE), Custodial Accounting Project (CAP), Integrated Financial System
(IFS), and Modernized e-File (MeF)) and three program-level task orders (Infrastructure Shared
Services (ISS), Program Management Office (PMO), and Systems Integration (SI)).
Descriptions of the projects and programs follow.
•      CADE – The CADE is the foundation for managing taxpayer accounts in the IRS
       modernization plan. It will consist of databases and related applications that will replace the
       IRS’ existing Master File6 processing systems and will include applications for daily
       posting, settlement, maintenance, refund processing, and issue detection for taxpayer tax
       account and return data.
•      CAP – The CAP will be a single, integrated data repository of taxpayer account
       information, integrated with the general ledger7 and accessible for management analysis and




5
  The IRS selected the Computer Sciences Corporation as the PRIME contractor.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
7
  A general ledger is a set of accounts used to summarize an organization’s financial transactions by transaction type
(e.g., cash receipts, accounts receivable, or rental expenses).
                                                                                                             Page 29
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

       reporting. The first release of the CAP will extract taxpayer account data from the
       Individual Master File (IMF) for the Taxpayer Account Subledger.8
•      IFS – The IFS is intended to address administrative financial management weaknesses. The
       first release of the IFS will include the Accounts Payable, Accounts Receivable, General
       Ledger, Budget Execution, Cost Management, and Financial Reporting activities. A future
       IFS release will be needed to fully resolve all administrative financial management
       weaknesses.
•      MeF – The MeF project develops the modernized, web-based platform for filing
       approximately 330 IRS forms electronically, beginning with the U.S. Corporation Income
       Tax Return (Form 1120), U.S. Income Tax Return for an S Corporation (Form 1120S), and
       Return of Organization Exempt From Income Tax (Form 990). The project serves to
       streamline filing processes and reduce the costs associated with a paper-based process.
•      ISS – The IRS established the ISS program to build and deliver an infrastructure that is
       scalable, interoperable, flexible, and manageable. This infrastructure provides standardized
       operations and a single security and enterprise systems management framework, as well as
       enables the IRS to deploy modernized business systems and fully integrate them with the
       current processing environment.
•      PMO – The PMO task order requires the PRIME contractor to 1) maintain a comprehensive
       program focused on providing overall program management for BSM projects and
       2) maintain program direction by continually aligning the program with the IRS business
       strategy.
•      SI – The SI task order requires the PRIME contractor to provide effective and efficient
       systems integration of business solutions from the current processing environment into the
       evolving modernized environment.




8
  The IMF is the IRS database that maintains transactions or records of individual tax accounts. The Taxpayer
Account Subledger will be an integrated data repository of taxpayer account information containing detailed
taxpayer account history and unpaid assessment information.




                                                                                                          Page 30
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Charlene L. Elliston, Auditor
Kim M. McManis, Auditor
Suzanne M. Noland, Auditor




                                                                                         Page 31
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Director, Procurement OS:A:P
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 32
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Reliability of Information – Potential; $268,000 (see page 17).
Methodology Used to Measure the Reported Benefit:
In a prior audit report,1 we recommended the Business Systems Modernization Office analyze
the time required to develop and negotiate strong performance-based contracting (PBC) task
orders and monitoring plans and build that time into the project schedules and processes. The
Office of Procurement used a sample of task orders to determine the mean2 amount of time to
develop, negotiate, and award both program- and project-level task orders, as well as an
adjustment factor to account for differences between task orders. The mean time to develop,
negotiate, and award a project task order was determined to be 173 days.
For the three project task orders we reviewed, Office of Procurement data were not available to
the acquisition teams prior to estimating the time needed to develop, negotiate, and award the
respective PBC task orders. As a result, we estimate the Internal Revenue Service (IRS) may
spend approximately $268,0003 on the additional staff time needed to develop, negotiate, and
award task orders over the amount of staff time allocated to complete these tasks.4 Figure 1
provides details on how this amount was calculated.




1
  Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
Modernization Projects (Reference Number 2002-20-170, dated September 2002).
2
  A “mean” is one method of calculating an average by dividing the sum of a set of values by the number of values.
The Office of Procurement computes the mean using the following formula: Mean=(Most Pessimistic
Estimate+4(Most Likely Estimate)+Most Optimistic Estimate)/6.
3
  This is a conservative estimate. If any adjustment factors were used, the time scheduled to develop, negotiate, and
award the task orders could have been longer than the mean time.
4
  Based on a preliminary version of this report, Office of Procurement officials stated the cost figures we were using
were only for the PRIME contractor. In one case (Integrated Financial System [IFS]), the cost figures for the
PRIME contractor included only a small portion of actual cost to develop, negotiate, and award the task order.
Office of Procurement officials explained the IRS did not have data to support IRS costs associated with developing,
negotiating, and awarding each task order. In addition, actual costs were not available for the IFS estimate because
the task order had yet to be awarded. Since all cost information was not available, we used the only figures
provided. As a result, the estimates we developed are very conservative.
                                                                                                             Page 33
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                  Figure 1: Computation of Outcome Measure
                                                                     Customer
                                                    Integrated       Account
                                                     Financial         Data
                                                      System          Engine         Modernized
Row              Calculation                           (IFS)         (CADE)          e-File (MeF)         Total5
 A  Actual or Estimated Cost to
    Develop, Negotiate, and Award the              $190,670.98      $645,471.00       $72,500.00
    Task Order6
 B  Actual Number of Days to Develop,
    Negotiate, and Award the Task                       n/a           180 days         238 days
    Order7
 C  Number of Days Allotted to
    Develop, Negotiate, and Award the                125 days         128 days          63 days
    Task Order in the Project Schedule
 D  Difference Between the Mean Time
    to Develop, Negotiate, and Award a
    Project Task and the Number of
    Days Allotted to These Activities in
    the Project Schedule. This is                     48 days          45 days         110 days
    computed by subtracting row C from
    the mean time allotted to develop,
    negotiate, and award project task
    orders (173 days).
 E  Actual or Estimated Cost to
    Develop, Negotiate, and Award the
    Task Order. For the IFS project, row
    E is computed by dividing row A by
    row C to obtain the estimated cost
    per day to develop, negotiate, and
    award the task order. We could only
                                                     $1,525.37       $3,585.95          $304.62
    estimate the cost per day because the
    IFS task order for milestone 5 had
    yet to be awarded. For the CADE
    and MeF projects, the actual cost to
    develop, negotiate, and award the
    task orders was computed by
    dividing row A by row B.


5
  The final total for this outcome measure is shown in row F. Interim totals are not provided.
6
  For the IFS project, the estimated cost to develop, negotiate, and award the task order was obtained from the IFS
project schedule. For the CADE and MeF projects, the actual costs to develop, negotiate, and award the task orders
were provided by the Contracting Officers.
7
  The IFS task order for milestone 5 had yet to be awarded; therefore, the actual number of days to develop,
negotiate, and award the task order was not available.
                                                                                                           Page 34
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                      Customer
                                                     Integrated       Account
                                                      Financial         Data
                                                       System          Engine         Modernized
Row              Calculation                            (IFS)         (CADE)          e-File (MeF)         Total5
 F  Estimated Cost for the Difference
    Between the Amount of Time
    Allotted to Develop, Negotiate, and
    Award the Task Order and the Mean
    Time to Develop, Negotiate, and                  $73,217.76      $161,367.75       $33,508.20       $268,093.71
    Award Project Task Orders. This is
        computed by multiplying row D
        by row E.
Source: Treasury Inspector General for Tax Administration analysis of Acquisition Planning Improvement
Preaward Timeline data, project schedules, and cost information provided by Contracting Officers.

Type and Value of Outcome Measure:
•    Cost Savings – Actual; $825,164 (see page 17).
Methodology Used to Measure the Reported Benefit:
The Federal Acquisition Regulation8 requires the definitization9 of a task order to be within 180
days of task order issuance or before completion of 40 percent of the work to be performed,
whichever occurs first. In October 2004, we determined MeF task order 120 had exceeded the
180-day threshold and recommended the task order be definitized as soon as possible. The
Contracting Officer notified us on December 21, 2004, that task order 120 was definitized on
November 19, 2004, with $825,164 in negotiated cost savings.




8
 48 C.F.R. § 16.603-2 (2001).
9
 Undefinitized task orders are those in which the contractor has been authorized to begin work, but the cost of the
work has only been proposed and not negotiated.




                                                                                                            Page 35
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                             Appendix V


       Memorandum #1: Business Systems Modernization Contracting and
                Cost/Schedule Estimation Recommendations

                              DEPARTMENT OF THE TREASURY
                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION
                                      July 2, 2004




MEMORANDUM FOR CHIEF INFORMATION OFFICER



FROM:                  Margaret E. Begg
                       Assistant Inspector General for Audit (Information
                       Systems Programs)

SUBJECT:               Business Systems Modernization Contracting and
                       Cost/Schedule Estimation Issues



Based on our recent discussion, I’m providing you with some information on work that
the Treasury Inspector General for Tax Administration (TIGTA) has performed in the
subject areas since you have indicated the Internal Revenue Service (IRS) is planning
to increase the use of firm-fixed price contracts and increase contractor accountability
for meeting cost and schedule estimates.
Attachment I contains a high-level summary of contracting and cost/schedule estimation
issues and recommendations that we have reported over the past 5 years. In case you
need further information, I am also providing several attachments that provide further
detail about our previous recommendations as well as the related IRS management


                                                                                   Page 36
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

responses. The issues and recommendations are separated into the following
categories:
•    Contract administration (Attachment II).
•    Contractor accountability (including firm-fixed price task orders and incentives)
     (Attachment III).
•    Cost and schedule estimation (Attachment IV).
•    Deliverable acceptance (Attachment V).
•    Performance based contracting (Attachment VI).
To keep the information focused, recommendations from the listed reports that related
to other areas, such as requirements management, are not included. I hope that the
attached information provides you with some historical perspective as the Business
Systems Modernization (BSM) program moves forward.
We are currently initiating an audit in the area of contract management and will include
the concerns you discussed with us in the scope of the review, as well as the previous
contracting issues we have reported. The engagement letter for this review should be
issued soon.
Please contact me at (202) 622-8510 if you have any questions.


Attachments




                                                                                     Page 37
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                           Attachment I


  High-Level Summary of Contracting and Cost/Schedule Estimation Issues and
                             Recommendations


Contract Administration (Attachment II contains additional detail)

Monitoring results should be documented and PRIME contractor performance data
should be compiled for each task order.

Task orders should include the requirement that the PRIME contractor provide written
assurance that it performed adequate diligence in defining all significant business
requirements and that the proposed new systems will deliver all of the essential
capabilities needed by users.

Contractor Accountability (Attachment III contains additional detail)

Require firm fixed-price task orders when appropriate.

Hold the PRIME contractor accountable, within a reasonable percentage, to cost and
schedule estimates developed at Milestone (MS) 3.

The Business Systems Modernization Office (BSMO) must ensure PRIME contractor
performance and accountability are effectively managed.

The BSMO should incorporate key personnel and qualifications into task orders.

The BSMO should develop incentives to increase PRIME contractor accountability for
software quality and testing.

Cost increases are mounting for the Custodial Accounting Project (CAP) because the
CAP contractor is not operating under a firm fixed-price contract.

Cost and Schedule Estimation (Attachment IV contains additional detail)

Project managers should build reserve and recovery time into work schedules.

Project managers should schedule adequate time for security testing and certification.


                                                                                 Page 38
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

The Chief Information Officer (CIO) should establish an interim method of developing
reliable estimates of IRS costs associated with modernization projects.

Lessons learned should be used in developing time estimates for critical tasks.

All BSM contractors should follow cost and schedule estimation policies and
procedures.

The cost and schedule estimation model calibration process should be documented.

Cost and schedule estimation procedures should provide details of what is needed to
support contractor estimates.

The Software Engineering Institute (SEI) should conduct an independent review of the
cost and schedule estimation system when ready.

Issues surfaced during cost and schedule estimation reviews should be entered into the
Item Tracking Reporting and Control (ITRAC) database.

The results of cost and schedule estimation reviews should be provided to the Office of
Procurement.

Cost and schedule estimation review results should be trended.

Cost and schedule estimation review findings should be shared with the estimators.

Deliverable Acceptance (Attachment V contains additional detail)

Architecture deliverables should be thoroughly evaluated by the BSMO Architecture and
Engineering Division.

Payment for architecture deliverables should not be made until the Director of the
Architecture and Engineering Division ensures the deliverable meets the IRS’ needs.

The PRIME contractor should review draft work products to ensure the products meet
task order requirements prior to delivery to the IRS.

The PRIME contractor quality review function should sign off on products prior to final
delivery to the IRS.

Tests that are normally run sequentially are being run concurrently. This raises the risk
of accepting a system that does not work as intended.
                                                                                   Page 39
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting


Performance-Based Contracting (Attachment VI contains additional detail)

Task a contractor to review incentives and provide recommendations for improvement.

For the Customer Relationship Management Examination project, the contractor was
being paid for hours expended and the contractor had not agreed to responsibilities for
the upcoming project phase.

For the Telecommunications Modernization project, the IRS paid the contractor for
hours worked versus an end result. When the project was cancelled, the IRS had paid
for incomplete products and had paid $300,000 more than the original contractor
proposal.

For the e-Services project, the task orders did not include performance-based
incentives for quality or timeliness. In addition, task order negotiations were
inconsistent.

The IRS should formalize the performance-based contract with the PRIME contractor
prior to exiting the design phase.

The IRS should implement procedures to ensure the completion of fully defined and
negotiated task orders for the next project phase prior to exiting the current project
phase.

Task orders for system design, development, and implementation should be
performance-based whenever appropriate.

The BSMO should provide guidance on developing measurable performance standards,
performance incentives, and monitoring plans.

The BSMO should determine if performance-based contracting (PBC) is appropriate for
all task orders.

The BSMO should develop balanced quality, schedule, and cost incentives for
performance based task orders.

The BSMO should determine the time needed to negotiate strong performance based
task orders and build this time into schedules.




                                                                                   Page 40
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                         Attachment II

           Contract Administration Recommendations and Responses


Additional Improvements Are Needed in the Application of Performance-Based
Contracting to Business Systems Modernization Projects (Reference Number
2002-20-170, dated September 2002)

      Recommendation: Ensure that monitoring results are documented and PRIME
      contractor performance data are compiled for each task order.
      IRS Response: As part of the PBC improvement effort, we will revise the
      monitoring guidance to ensure that BSM staff document results and compile
      contractor performance data for each PRIME task order.

Oversight of the Business Systems Modernization Contractor Needs Improvement
(Reference Number 2004-20-034, dated January 2004)

      Recommendation: Ensure future task orders include the requirement that the
      [Computer Sciences Corporation] (CSC) provide written assurance that it and its
      major subcontractors performed adequate diligence in defining all significant
      business requirements and that the proposed new systems will deliver all of the
      essential functional and operational capabilities needed by the systems’ users.
      IRS Response: The CIO has issued a directive that requires fixed-price
      contracting for all systems development and implementation projects.
      Fixed-price contracting requires mutually agreed detailed specifications, which
      are not created until part way toward MS 4. To address this we are establishing
      a new formal checkpoint, MS 4A, at which point these specifications will be
      developed. We will require CSC to provide their written assurance at this
      checkpoint.




                                                                               Page 41
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                          Attachment III

          Contractor Accountability Recommendations and Responses


Additional Improvements Are Needed in the Application of Performance-Based
Contracting to Business Systems Modernization Projects (Reference Number
2002-20-170, dated September 2002)

      Recommendation: Require the use of firm fixed-price task orders whenever
      possible and appropriate for projects in development and deployment and for any
      other task orders where requirements are clearly identified.
      IRS Response: The Contract Executive Council (CEC) will assess various
      contracting strategies to ensure firm fixed-price contracts are used in accordance
      with this recommendation.

Improvements to the Modernized Infrastructure Are Needed to Support the Deployment
of Business Systems Modernization Projects (Reference Number 2003-20-161, dated
August 2003)

      Recommendation: Hold the PRIME contractor accountable, within a reasonable
      percentage, to cost and schedule estimates developed at the end of the design
      phase [Baseline Business Case] (BBC). This would help force the PRIME
      contractor to improve the estimates provided to the IRS.
      IRS Response: New PBC guidelines and templates for MS 1/2/3, 4/5, and
      support activities (program management, systems integration) have been
      developed and are being implemented. We are in the process of developing a
      management directive for the use of firm-fixed price contracts on the BSM
      program, with an initial emphasis on firm-fixed price contracts for MS 4 and 5
      activities, where we have experienced the greatest variance against cost and
      schedule baselines. The directive will be in place by October 30, 2003.
      At the present time, we are also entering on our tracking system a
      recommendation stemming from the June 2003 [Government Accountability
      Office] GAO report 03-768 to implement effective procedures for validating
      contractor developed cost and schedule estimates. We are working with the
      contractor to develop methods for risk-adjusting baseline estimates in the
      baseline business case, which is a prerequisite for entering into more aggressive
      contract types. All Office of Management and Budget (OMB) Exhibit 300s for
      Fiscal Year (FY) 2005 include these risk adjusted cost estimates. We believe
      that selecting contract types that transfer consequences of inadequate estimates

                                                                                 Page 42
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      to contractors is the best motivation for improving estimation reliability, and hold
      them accountable.
      We have established the CEC, which is pursuing improvements across the
      spectrum of contract management for the modernization program. …In addition,
      contract management and cost schedule estimation processes are monitored
      monthly as part of our management process improvement.

Annual Assessment of the Business Systems Modernization Program (Reference
Number 2003-20-208, dated September 2003)

      Issue: In addition, we believe the BSMO is facing a fourth significant
      challenge…Specifically, the BSMO must ensure PRIME contractor performance
      and accountability are effectively managed.

      IRS Response: We established a CEC over a year ago that has overseen the
      streamlining of the contracting process and eliminated all past undefinitized
      contracts. We are also implementing a policy directing the use of fixed-price as
      the standard contracting convention for all contracts and task orders for BSM
      development projects following system specification.

Oversight of the Business Systems Modernization Contractor Needs Improvement
(Reference Number 2004-20-034, dated January 2004)

      Recommendation: Ensure future task orders include the requirement that the
      CSC provide written assurance that it and its major subcontractors performed
      adequate diligence in defining all significant business requirements and that the
      proposed new systems will deliver all of the essential functional and operational
      capabilities needed by the systems’ users.

      IRS Response: The CIO has issued a directive that requires fixed-price
      contracting for all systems development and implementation projects. Fixed-
      price contracting requires mutually agreed detailed specifications, which are not
      created until part way toward MS 4. To address this we are establishing a new
      formal checkpoint, MS 4A, at which point these specifications will be developed.
      We will require CSC to provide their written assurance at this checkpoint.




                                                                                    Page 43
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

Oversight of the Business Systems Modernization Contractor Needs Improvement
(Reference Number 2004-20-034, dated January 2004)

      Recommendation: Require the BSMO to incorporate all key personnel and the
      three qualifications required in the IRS’ April 2002 letter into the key personnel
      section of the task orders.

      IRS Response: Agree with this recommendation. We will work with the Office of
      Procurement to establish an Education and Experience Matrix that identifies and
      provides a correlation of the minimum education, expected experience (in years),
      and responsibilities of the labor categories identified as key personnel (see
      Corrective Action 3). Procurement will in turn develop template language to be
      included in each task order that will require for other than fixed-price or capped
      contracts that PRIME: submit key personnel availability certification for each
      newly hired key person proposed under the task order; submit a key personnel
      matrix that maps the skills and experience of the proposed key personnel to the
      task/skill areas identified in the task order; and, use a standard key personnel
      resume for all key personnel proposed.

Requirements Changes and Testing Delays Have Further Increased the Costs and
Delayed the Benefits of the e-Services Project (Reference Number 2004-20-036, dated
February 2004)

      Recommendation: To improve testing, the CIO should require the BSMO to
      develop incentives to increase PRIME contractor accountability in the areas of
      software quality and testing.

      IRS Response: Partially agreed with this recommendation. We have taken
      actions to address this recommendation. We agree that contractor incentives
      should be applied to the integration and test area. We have included items to
      increase contractor accountability in the new Systems Integration Task Order for
      this fiscal year. However, we did not include the specific incentive for the
      contractor for systems that successfully pass government acceptance testing
      with a minimum level of software defects.
      The CIO has issued a directive that requires fixed-price contracting for all
      systems development and implementation projects. Since fixed-price contracting
      requires mutually agreed specifications, we are establishing a new checkpoint,
      MS 4A, at which point these specifications should be developed. We will require
      CSC to provide their written assurance at this checkpoint that they performed
      due diligence in defining all significant business requirements.


                                                                                  Page 44
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      As mentioned in Corrective Action 1, we will be implementing the
      recommendations from recent BSM program reviews to further improve this area.
      Some of these recommendations are: identify key productivity and quality
      metrics across the life cycle based on industry standards; ensure more effective
      integration of IRS and PRIME/subs test teams; and, strengthen development
      environment by expanding capacity greater automation testing, and separating
      out infrastructure development.

The Custodial Accounting Project Team Is Making Progress; However, Further Actions
Should Be Taken to Increase the Likelihood of a Successful Implementation (Reference
Number 2004-20-061, dated March 2004)

      Issue: One of the reasons cost increases continue to mount for the Federal
      Government is that the CAP contractor is not operating under a firm fixed-price
      contract. In the past, we have recommended firm fixed-price contracts be used
      whenever possible, especially for projects in the development and deployment
      stages such as the CAP.

      IRS Response: Since no recommendation was made, the IRS was not required
      to respond to this comment.




                                                                                Page 45
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                          Attachment IV

        Cost and Schedule Estimation Recommendations and Responses


Progress in Developing the Customer Communications Project Has Been Made, But
Risks to Timely Deployment in 2001 Still Exist (Reference Number 2001-20-055, dated
March 2001)

      Recommendation: Ensure project managers build sufficient reserves and
      recovery time into work schedules to allow for the impact of unplanned events on
      project delivery.

      IRS Response: The IRS agrees with this recommendation. The need for time
      reserves should be determined initially by the PRIME project manager and
      submitted as part of the PRIME's milestone proposal. Proposing prudent time
      reserves is the responsibility of the PRIME and involves their professional
      judgment. The Service then reviews the proposed schedule to see that it
      contains realistic timeframes.

      Recommendation: Ensure project managers schedule adequate time to allow
      for security testing and certification before project development. Managers need
      to continue to work closely with the IRS' Office of Security and Privacy Oversight
      to develop and schedule the testing processes.

      IRS Response: We agree with this recommendation and believe we have
      already implemented a corrective action. PRIME Project managers are already
      working closely with the IRS' Office of Security and Privacy Oversight (SPO). In
      the case of CCP 2001, PRIME and SPO met prior to the start of PRIME's
      Application Qualification Testing (AQT) to discuss several scheduling options and
      document the agreed upon testing schedules and requirements. It should also
      be understood that the three-month security process cited in the audit report is
      not an absolute; it is subject to negotiation with SPO.

Modernization Project Teams Need To Follow Key Systems Development Processes
(Reference Number 2002-20-025, dated November 2001)

      Recommendation: The CIO should establish an interim method of developing
      reliable estimates of IRS costs associated with modernization projects.

      IRS Response: Management’s response was due on November 8, 2001. As of
      November 14, 2001, management had not responded to the draft report.
                                                                                  Page 46
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting


The Business Systems Modernization Office Needs to Strengthen Its Processes for
Overseeing the Work of the PRIME Contractor (Reference Number
2002-20-059, dated March 2002)

      Recommendation: Project managers use “lessons learned” from previous BSM
      projects in developing time estimates for critical tasks. Until those lessons are
      effectively implemented, project schedules should include reserve time to
      compensate for delays or unplanned events.

      IRS Response: The IRS will require the PRIME to develop or enhance its
      schedule estimating capability to improve the estimates provided for
      modernization projects. The IRS does not agree that reserve time should be built
      in for delays or unplanned events, because doing so could inadvertently
      encourage inefficient performance.

The Cost and Schedule Estimation Process for the Business Systems Modernization
Program Has Been Improved, but Additional Actions Should Be Taken (Reference
Number 2003-20-219, dated September 2003)

      Recommendation: Ensure that all contractors working on BSM projects follow
      the PRIME contractor’s policies and procedures for preparing cost and schedule
      estimates and provide data for inclusion in the historical database.

      IRS Response: Agree with this recommendation. Over the last year and a half,
      BSM has been working with PRIME to improve policies and procedures as well
      as the tools used to execute better cost and schedule estimates. We now will
      extend this approach to non-PRIME led BSM projects, taking advantage of the
      lessons learned in building the PRIME based approach. We are also studying
      how to include non-PRIME historical data in the PRIME's database under terms
      and conditions that ensure protection of proprietary data.

      Recommendation: Ensure that the PRIME contractor documents the process
      for cost and schedule estimation model calibrations.

      IRS Response: Agree with this recommendation. We are addressing this
      recommendation by documenting the calibration process for the Constructive
      Cost Model (COCOMO) II model and the draft validation process for selected
      PRIME developed models.

      Recommendation: Ensure that the PRIME contractor revises the cost and
      schedule estimation guidebook and applicable Enterprise Life Cycle (ELC)
                                                                                Page 47
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

     references to provide details of what specific documentation is required to
     support estimates. The CIO should also require the BSMO to ensure that
     guidance is clarified regarding when a second method is required for preparing
     estimates.

     IRS Response: The PRIME contractor revises the cost and schedule estimation
     guidebook and applicable ELC references to provide details of what specific
     documentation is required to support estimates. The CIO should also require the
     BSMO to ensure that guidance is clarified regarding when a second method is
     required for preparing estimates.

     Recommendation: Ensure that the SEI is requested to conduct an independent
     review of the cost and schedule estimation system once the initial validation is
     complete and policies and procedures are fully implemented.

     IRS Response: Agree with this recommendation. Before we consider this
     recommended independent review, we need to complete the validation, develop
     and deploy a methodology for risk adjustments, and complete revisions for
     incorporating enhanced cost and schedule estimating capability in business case
     (e300) and expenditure plan estimates.
     The use of multiple estimation techniques and methods is discussed in the
     estimation guidebook dated June 30, 2003. It states, "Use at least two
     estimation approaches or techniques when estimating your project. Estimates
     that make up a large segment of the overall estimate or that have an especially
     large uncertainly should be estimated by more than one method.”

     Recommendation: Ensure that the BSMO updates draft procedures to include
     guidance on including all issues identified during the cost and schedule
     estimation system validation and estimate reviews in the ITRAC system.

     IRS Response: Agree with this recommendation. We are taking actions to
     address this condition. We will include risks and issues identified in the
     validation report and action item list in the ITRAC system following guidance
     governing ITRAC. We will also update the Estimate Review Procedure to reflect
     the change.

     Recommendation: Ensure that the BSMO updates draft procedures to include
     guidance on providing cost and schedule estimation system validation and
     estimate review reports to the IRS Procurement function.



                                                                               Page 48
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

     IRS Response: Agree with this recommendation. We are revising the review
     procedure, which will address sharing information with the Office of Procurement.

     Recommendation: Ensure that the BSMO updates draft procedures to include
     trending estimate review results.

     IRS Response: Agree with this recommendation. We need time to discern the
     effects of cost and schedule estimation capability enhancements. We will begin
     implementing processes and procedures in BSMO and at PRIME, and we should
     see improvements in FY 2004. As we adapt guidance and practices for unique
     applications of cost and schedule estimation enhancements across all types of
     estimates proposals will benefit and spend plans. Beginning in the first quarter of
     FY2004, we will coordinate with BSMO and PRIME program control and
     performance measurement functions to trend estimate review results.

     Recommendation: Ensure that the BSMO updates draft procedures to include
     providing all estimate review findings to the cost and schedule estimators.

     IRS Response: Agree with this recommendation. We will update the Estimate
     Review Procedure to require all review checklists and reports to be forwarded to
     a central overseer, as resources are available.




                                                                                 Page 49
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                            Attachment V

           Deliverable Acceptance Recommendations and Responses


Additional Actions Are Needed To Strengthen The Development And Enforcement Of
The Enterprise Architecture (Reference Number 2000-20-158, dated September 2000)

      Recommendation: To establish a process to ensure architecture deliverables
      meet the IRS’ needs, the CIO should take actions to implement processes
      necessary to ensure the architecture deliverables received from the PRIME
      contractor are thoroughly evaluated by the Architecture Systems and
      Engineering (AE) Division staff. These validation controls should be established
      prior to the delivery of the enterprise architecture products that are scheduled for
      delivery by the PRIME contractor. These processes should ensure that benefits
      claimed from architecture investments are fully supported by sufficient data.

      IRS Response: The IRS will establish validation procedures to ensure the
      architecture deliverables are thoroughly evaluated.

      Recommendation: To establish a process to ensure architecture deliverables
      meet the IRS’ needs, the CIO should take actions to implement processes
      necessary to strengthen the deliverable acceptance process to ensure that
      payment for an architecture deliverable is not initiated until the Director of AE
      approves that the deliverable meets the IRS’ needs.

      IRS Response: As part of the Enterprise Architecture supplement, the IRS will
      strengthen the deliverable acceptance process, as defined in the ELC, to include
      approval from the Director of the Architectural Engineering Division before
      accepting an architecture deliverable.

Additional Improvements Are Needed in the Application of Performance-Based
Contracting to Business Systems Modernization Projects (Reference Number
2002-20-170, dated September 2002)

      Recommendation: Require the PRIME contractor to conduct a review of draft
      work products with the IRS to ensure the products meet task order requirements
      prior to their delivery to the BSMO.

      IRS Response: No corrective action is necessary because the IRS does not
      accept or reject draft work products from our PRIME contractor. Nevertheless,
      as part of our partnership approach in the modernization effort, the IRS and
                                                                                   Page 50
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      PRIME play key roles in developing solutions. The strategy of receiving draft
      work products facilitates the communication of IRS requirements up front and
      through the entire process. We believe we can work closer on some draft work
      products, whether by co-developing them in an Integrated Product Team (IPT)
      environment or by using informal reviews with the IRS to better ensure eventual
      acceptance of task order deliverables. To mandate a review of all draft work
      products may add cost without substantive value in some if not most cases.

      Recommendation: Ensure the final PRIME contractor quality review signoff
      occurs prior to the final delivery of contractor products.

      IRS Response: No additional corrective action is necessary. A corrective action
      currently exists in the Treasury Corrective Action Database for Audit Report
      Number 2001-20-039. Corrective Action 4-1-1, Revising the Milestone Exit
      Review (MER) Process, includes revised requirements regarding PRIME review
      before IRS acceptance of final deliverables.
      We are modifying the MER process/procedure to reflect the following changes:
      the documents reflect IRS stakeholder review and the Program Director Offices
      (PDOs) and their government task managers (GTM) have the authority and
      accountability for the approval of all project deliverables and work products; the
      MER documents provide definition and guidance for all milestone reviews to
      ensure consistency across all projects; a documented process will ensure project
      integration across all projects, identifying dependencies, critical paths, risks, and
      issues that impact more than one project, and ensuring that current (legacy)
      systems are considered throughout the process; and, the MER will provide a
      comprehensive checklist of products the PRIME contractor will review and sign,
      including the PRIME quality organization and the IRS operational area that is the
      authorized reviewer of the specific product as well as the PRIME.

Testing Practices for Business Systems Modernization Projects Need Improvement
(Reference Number 2003-20-178, dated September 2003)

      Issue: When tests that should be performed sequentially are run concurrently,
      such as integration and acceptance testing, the IRS runs the risks of incurring
      additional costs and schedule delays due to the need to re-perform some tests.
      For example, changes made to a system to address a problem identified in
      integration testing may affect the validity of previously conducted acceptance
      tests, so those tests may need to be performed again to ensure system changes
      did not impact acceptance criteria. If previously conducted tests are not re-
      performed, the IRS may risk accepting a system that does not work as intended
      or meet all contractual requirements.

                                                                                    Page 51
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting


     IRS Response: Our business customers are fully engaged in the management
     process in assuring that any tailoring of testing represents the right tradeoffs.




                                                                                 Page 52
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

                                                                         Attachment VI

       Performance Based Contracting Recommendations and Responses


The Business Systems Modernization Office Has Made Solid Progress and Can Take
Additional Actions to Enhance the Chances of Long-Term Success (Reference Number
2001-20-039, dated February 2001)

      Recommendation: Task Jefferson Solutions to review performance-based
      incentives and provide recommendations for improving incentives in future task
      orders. Accepted recommendations and suggestions received from Jefferson
      Solutions should be used to establish policies and procedures for creating
      performance-based task orders.

      IRS Response: The IRS contracted Jefferson Solutions to review many of the
      IRS task orders to ensure proper incentives are in place. In addition, Jefferson
      Solutions is creating PBC matrix templates. The Program Management Office
      (PMO) tasked the PRIME FY 01 Task Order to incorporate and formalize these
      templates into the ELC. Additionally, Jefferson Solutions will review performance
      based incentives and provide recommendations for improving incentives in future
      task orders.

The Customer Relationship Management Examination Project Experienced Delays and
Increased Costs, But Lessons Learned Should Improve Future Modernization Projects
(Reference Number 2001-20-140, dated August 2001)

      Issue: The BSMO has recently been focusing on issuing contracts where
      payments are based on contractor performance rather than simply on the hours
      expended by the contractor. The BSMO has also improved its ability to ensure
      specific contract requirements are agreed to prior to tasking the contractor to
      begin work. However, the most recent contract with the CSC that we reviewed
      did not apply PBC methods and did not properly define the requirements of the
      next phase of the project’s development. As a result, the contractor was being
      paid based on hours expended, instead of results achieved, and the IRS and the
      CSC had not agreed to responsibilities for the next project phase.

      IRS Response: No response was required because the issues in this report and
      several other project audits were summarized and reported in 2 separate audit
      reports: 1) The Business Systems Modernization Office Needs to Strengthen Its
      Processes for Overseeing the Work of the PRIME Contractor (2002-20-059), and

                                                                                Page 53
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      2) Modernization Project Teams Need To Follow Key Systems Development
      Processes (2002-20-025).

The Telecommunications Modernization Project Provided Some Benefits, But Process
Improvements Are Needed for Future Projects (Reference Number 2001-20-143, dated
August 2001)

      Issue: A preliminary contract had been signed to allow the CSC to begin work
      on the system concept phase (also called the Architecture phase) of the project,
      but neither the requirements nor the full dollar amount to complete the phase had
      been negotiated. The IRS paid for hours worked by the CSC, rather than a
      specific amount for each completed product. The payments for the hourly work
      increased over 5 months to nearly $3.9 million by the time the project was
      cancelled.

      Because this project was cancelled, the tasks included in the proposal received
      from the CSC were only partially completed. Approximately $1.1 million of the
      $3.9 million had been spent on these incomplete products at the time the
      decision was made to cancel the project. In addition, documentation indicates
      that the IRS paid nearly $300,000 more to the CSC than would have been
      expected if the CSC’s initial contract proposal had been accepted as submitted.

      IRS Response: No response was required because the issues in this report and
      several other project audits were summarized and reported in 2 separate audit
      reports: 1) The Business Systems Modernization Office Needs to Strengthen Its
      Processes for Overseeing the Work of the PRIME Contractor (2002-20-059), and
      2) Modernization Project Teams Need To Follow Key Systems Development
      Processes (2002-20-025).

Improvements Are Needed in the Management of the e-Services Project to Enable
Timely Progress Towards Future Goals (Reference Number
2001-20-144, dated September 2001)

      Issue: The BSMO issues contracts (called task orders) to the CSC for specific
      products and services. Although the BSMO is improving the task order process,
      the task orders we reviewed did not include performance-based incentives for
      quality or timeliness. Also, the e-Services project team did not consistently
      negotiate task orders in a timely manner.

      IRS Response: No response was required because the issues in this report and
      several other project audits were summarized and reported in 2 separate audit
      reports: 1) The Business Systems Modernization Office Needs to Strengthen Its
                                                                                Page 54
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      Processes for Overseeing the Work of the PRIME Contractor (2002-20-059), and
      2) Modernization Project Teams Need To Follow Key Systems Development
      Processes (2002-20-025).

Uncertainties Facing the Customer Communications 2002 Project May Jeopardize Its
Timely Deployment (Reference Number 2001-20-179, dated September 2001)

      Recommendation: The IRS needs to formalize the performance-based contract
      with CSC before exiting the design phase of Customer Communications (CC)
      2002.

      IRS Response: BSMO management requested an extension to respond to our
      draft report from August 29, 2001, to September 7, 2001. As of September 20,
      2001, management had not responded to the draft report.

The Business Systems Modernization Office Needs to Strengthen Its Processes for
Overseeing the Work of the PRIME Contractor (Reference Number
2002-20-059, dated March 2002)

      Recommendation: Finalize and implement procedures that require the
      completion of fully defined and negotiated task orders for the next project phase
      prior to exiting the current development phase or milestone. The BSMO’s
      milestone exit review should ensure that task orders for the next phase or
      milestone contain measurable performance standards, specific deliverables,
      costs, and due dates.

      IRS Response: Our goal is to fully define and negotiate task orders before
      exiting any milestone. This is critical for a successful exit from MS 3. Thus, we
      made it part of the Task Order Issuance Process Description - applicable to all
      projects and milestones - on October 12, 2001. However, with projects of the
      complexity and scope currently in BSM, we may proceed with a letter contract, as
      permitted by the Federal Acquisition Regulation, to continue progress.

      Recommendation: Require that task orders for system design, development,
      and implementation be performance-based whenever possible. These task
      orders should include incentive provisions to reward contractors for good
      performance and quality assurance deduction schedules to discourage
      unsatisfactory performance. The incentive and disincentive provisions should be
      based on measurement against predetermined performance standards and
      review plans.


                                                                                 Page 55
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

      IRS Response: No additional corrective action is necessary. BSMO uses PBC
      for system design, development, and implementation whenever appropriate. If
      we determine that additional incentives will properly motivate the contractor, and
      the benefits of such incentives will likely outweigh the cost of contract
      administration, then we will use them. We do not believe the use of disincentives
      - in the form of quality assurance deduction schedules - in modernization
      contracts will resolve schedule shortfalls experienced to date. However, we
      believe that disincentives at this relatively early stage of modernization would
      adversely impact our ability to cultivate the seamless management partnership
      with the PRIME that is crucial to the program's long-term success.

Additional Improvements Are Needed in the Application of Performance-Based
Contracting to Business Systems Modernization Projects (Reference Number
2002-20-170, dated September 2002)

      Recommendation: Provide additional guidance and useful examples to
      procurement and project personnel on developing measurable performance
      standards, performance incentives, and monitoring plans. This guidance should
      include lessons learned from the task orders and monitoring plans issued thus
      far.

      IRS Response: In May 2002, the CEC chartered its working group, the Contract
      Process Action Team (CPAT), to retool/improve the PBC process. We initiated
      this effort to facilitate effective requirements documentation, including clearly
      stated outcomes, required services, performance standards, acceptable quality
      levels, and to monitor methodologies, incentives, and disincentives. The CPAT
      will use PBC lessons learned and PBC best practices to refine the PBC matrices
      and Performance Based Work Statements (PBWS) for milestone and non-
      milestone task orders. After CEC approves the CPAT recommendations for PBC
      refinement, BSM will provide guidance to IRS Procurements and project
      personnel.

      Recommendation: Determine whether PBC is appropriate for all the BSMO
      task orders.

      IRS Response: The BSM CEC and the CPAT will review this area and consider
      issuing more specific guidance for the use of PBC with various task orders.

      Recommendation: Require the development of balanced quality, schedule, and
      cost incentives for performance-based task orders.


                                                                                 Page 56
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

     IRS Response: As part of the PBC improvement effort addressed in Corrective
     Action No. 2, the IRS will revise task order development guidance, such as the
     PBC matrices and monitoring plans, to address the development of balanced
     quality, schedule, and cost incentives as appropriate for performance-based task
     orders.

     Recommendation: Analyze the time required to develop and negotiate strong
     PBC task orders and monitoring plans, and build that time into the project
     schedules and processes.

     IRS Response: As part of the PBC improvement effort addressed in Corrective
     Action No. 2, the CPAT will use lessons learned to determine the approximate
     time required to develop and negotiate various PBC task orders. We will revise
     affected BSM processes and procedures (e.g., the acquisition project planning
     process) accordingly.




                                                                              Page 57
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                                              Appendix VI


      Prior Treasury Inspector General for Tax Administration Recommendations

During the course of this audit, we followed up on six Treasury Inspector General for Tax
Administration (TIGTA) recommendations contained in a prior audit report.1 The following
were our recommendations and the Internal Revenue Service’s (IRS) responses.
1.       TIGTA Recommendation: To improve management of contractor performance, the
         Business Systems Modernization (BSM) Office (BSMO) should determine whether
         performance-based contracting (PBC) is appropriate for all the BSMO task orders.
         IRS Response: The BSM Contracting Executive Council (CEC) and the Contract
         Process Action Team (CPAT)2 would review this area and consider issuing more specific
         guidance for the use of PBC with various task orders.
2.       TIGTA Recommendation: To improve management of contractor performance, the
         BSMO should provide additional guidance and useful examples to procurement and
         project personnel on developing measurable performance standards, performance
         incentives, and monitoring plans. This guidance should include lessons learned from the
         task orders and monitoring plans issued thus far.
         IRS Response: In May 2002, the CEC chartered its working group, the CPAT, to
         retool/improve the PBC process. The IRS initiated this effort to facilitate effective
         requirements documentation, including clearly stated outcomes, required services,
         performance standards, and acceptable quality levels, and to monitor methodologies,
         incentives, and disincentives. The CPAT planned to use PBC lessons learned and PBC
         best practices to refine the PBC matrices and Performance-Based Work Statements for
         milestone and nonmilestone task orders. After the CEC approves the CPAT
         recommendations for PBC refinement, the BSMO will provide guidance to IRS
         procurement and project personnel.
3.       TIGTA Recommendation: To improve management of contractor performance, the
         BSMO should analyze the time required to develop and negotiate strong PBC task orders
         and monitoring plans and build that time into the project schedules and processes.
         IRS Response: As part of the PBC improvement effort addressed in number 2 above, the
         CPAT would use lessons learned to determine the approximate time required to develop



1
  Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
Modernization Projects (Reference Number 2002-20-170, dated September 2002).
2
  The CEC promotes the most effective contractual strategies and approaches in support of IRS modernization,
including the appropriate use of PBC. The CPAT is a working group tasked with PBC improvement strategies.
                                                                                                      Page 58
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

           and negotiate various PBC task orders. The IRS will revise affected BSM processes and
           procedures (e.g., the acquisition project planning process) accordingly.
4.         TIGTA Recommendation: To improve management of contractor performance, the
           BSMO should ensure monitoring results are documented and PRIME contractor3
           performance data are compiled for each task order.
           IRS Response: As part of the PBC improvement effort addressed in number 2 above, the
           IRS would revise the monitoring guidance to ensure BSM staff document results and
           compile contractor performance data for each PRIME contract task order.
5.         TIGTA Recommendation: To improve management of contractor performance, the
           BSMO should require the development of balanced quality, schedule, and cost incentives
           for performance-based task orders.
           IRS Response: As part of the PBC improvement effort addressed in number 2 above, the
           IRS would revise task order development guidance, such as the PBC matrices and
           monitoring plans, to address the development of balanced quality, schedule, and cost
           incentives as appropriate for performance-based task orders.
6.         TIGTA Recommendation: To better control contractor costs, the BSMO should require
           the use of firm fixed-price task orders whenever possible and appropriate for projects in
           development and deployment and for any other task orders where requirements are
           clearly identified.
           IRS Response: The CEC would assess various contracting strategies to ensure it uses
           firm fixed-price contracts in accordance with this recommendation.




3
    The IRS selected the Computer Sciences Corporation as the PRIME contractor.


                                                                                            Page 59
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                                   Appendix VII


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology. It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
1. Life-Cycle Processes, which are organized into phases and subphases and address all
   domains of business change.
2. Management Processes, which are organized into management areas and operate across the
   entire life cycle.




1
    The IRS selected the Computer Sciences Corporation as the PRIME contractor.
                                                                                          Page 60
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                          Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                   Business Processes




                                                                                                                            Operations & Support
                                                                                                           Applications
                  Vision & Strategy




                                                       Development
                                        Architecture




                                                                                   Deployment
                                                                     Integration
    Life Cycle




                                                                                                                   Data


                                                                                                Organizational Change


                                                                                                Technical Infrastructure


                                                                                                Facilities Infrastructure


                                                                                                                            ft991001

Source: ELC Guide, Page 2-16.

Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy – This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture – This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.




                                                                                                                                                   Page 61
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

•        Development – This phase includes the analysis, design, acquisition, modification,
         construction, and testing of the components of a business solution. This phase also
         includes routine planned maintenance of applications.
•        Integration – This phase includes the integration, testing, piloting, and acceptance of a
         release. In this phase, the integration team brings together individual work packages of
         solution components developed or acquired separately during the Development phase.
         Application and technical infrastructure components are tested to determine whether they
         interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
         business solution work together.
•        Deployment – This phase includes preparation of a release for deployment and actual
         deployment of the release to the deployment sites. During this phase, the deployment
         team puts the solution release into operation at target sites.
•        Operations and Support – This phase addresses the ongoing operations and support of
         the system. It begins after the business processes and system(s) have been installed and
         have begun performing business functions. It encompasses all of the operations and
         support processes necessary to deliver the services associated with managing all or part
         of a computing environment.
         The Operations and Support phase includes the scheduled activities, such as planned
         maintenance, systems backup, and production output, as well as the nonscheduled
         activities, such as problem resolution and service request delivery, including emergency
         unplanned maintenance of applications. It also includes the support processes required to
         keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•        IRS Governance and Investment Decision Management – This area is responsible for
         managing the overall direction of the IRS, determining where to invest, and managing the
         investments over time.
•        Program Management and Project Management – This area is responsible for
         organizing, planning, directing, and controlling the activities within the program and its
         subordinate projects to achieve the objectives of the program and deliver the expected
         business results.
•        Architectural Engineering/Development Coordination – This area is responsible for
         managing the technical aspects of coordination across projects and disciplines, such as
         managing interfaces, controlling architectural changes, ensuring architectural compliance,
         maintaining standards, and resolving issues.
                                                                                             Page 62
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

•        Management Support Processes – This area includes common management processes,
         such as quality management and configuration management that operate across multiple
         levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•        Milestone 1 – Business Vision and Case for Action. In the activities leading up to
         Milestone 1, executive leadership identifies the direction and priorities for IRS business
         change. These guide which business areas and systems development projects are funded
         for further analysis. The primary decision at Milestone 1 is to select BSM projects based
         on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•        Milestone 2 – Business Systems Concept and Preliminary Business Case. The
         activities leading up to Milestone 2 establish the project concept, including requirements
         and design elements, as a solution for a specific business area or business system. A
         preliminary business case is also produced. The primary decision at Milestone 2 is to
         approve the solution/system concept and associated plans for a modernization initiative
         and to authorize funding for that solution.
•        Milestone 3 – Business Systems Design and Baseline Business Case. In the activities
         leading up to Milestone 3, the major components of the business solution are analyzed
         and designed. A baseline business case is also produced. The primary decision at
         Milestone 3 is to accept the logical system design and associated plans and to authorize
         funding for development, test, and (if chosen) pilot of that solution.
•        Milestone 4 – Business Systems Development and Enterprise Deployment Decision.
         In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
         activities are separated by two checkpoints. Activities leading up to Milestone 4A
         involve further requirements definition, production of the system’s physical design, and
         determination of the applicability of fixed-price contracting to complete system
         development and deployment. To achieve Milestone 4B, the system is integrated with
         other business systems and tested, piloted (usually), and prepared for deployment. The
         primary decision at Milestone 4B is to authorize the release for enterprise-wide
         deployment and commit the necessary resources.
                                                                                             Page 63
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

•        Milestone 5 – Business Systems Deployment and Postdeployment Evaluation. In the
         activities leading up to Milestone 5, the business solution is fully deployed, including
         delivery of training on use and maintenance. The primary decision at Milestone 5 is to
         authorize the release of performance-based compensation based on actual, measured
         performance of the business system.




                                                                                          Page 64
           While Many Improvements Have Been Made, Continued Focus Is Needed
    to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                        Contracting

                                                                                                    Appendix VIII


                       Application of Contract Negotiation Best Practices

Using a sample of seven task orders, we reviewed available contract negotiation documentation
and interviewed acquisition personnel associated with each task order. We compared the results
of our interviews and documentation reviews with 10 contract negotiations best practices.
Table 1 presents the results of our analysis.
                           Table 1: Application of Contract Negotiation Best Practices
                                    Project- or Program-Level Task Orders1
                                   CADE
                                                      CAP         IFS        MeF         ISS        PMO          SI
Best Practice                    Release 1.2
Alpha Contracting Methods
                                     No                No         Yes         No         No          No         Yes
Should Be Considered.
All Stakeholders Should Be
                                     No               Yes         Yes        Yes         Yes         Yes        Yes
Present for Negotiations.
Memoranda of Understanding
                                    Yes                No         Yes         n/a        Yes         No         Yes
Should Be Prepared.
Independent Federal
Government Cost Estimate            Yes                No         No          No         No          No          No
Should Be Obtained.
Cost and Price Analyses Should
                                    Yes               Yes         Yes         n/a        n/a         n/a         n/a
Be Conducted.
Technical and Cost Evaluations
                                    Yes               Yes         Yes         n/a        Yes         Yes        Yes
Should Be Conducted.
Cost and Schedule Estimates
                                    Yes               Yes         Yes        Yes         n/a         n/a         n/a
Should Be Reviewed.
Issues Matrices Should Be
                                    Yes                No         Yes         n/a        Yes        Yes         Yes
Prepared.
Negotiation Priorities Should Be
                                    Yes                No        Yes2         n/a        Yes         Yes        Yes
Documented.
Negotiation Strategies Should
Be Documented.                       No                No         Yes         No         No          No          No
Source: Treasury Inspector General for Tax Administration comparison for seven sampled task orders against best
practices (IRS’ [Internal Revenue Service] PBC [Performance-Based Contracting] Lessons Learned and Best


1
  See Appendix I for a list of program- and project-level task orders selected for our sample, abbreviation
definitions, and associated descriptions.
2
  In October 2004, we briefed the Business Systems Modernization Office on the Internal Revenue Service’s
application of contract negotiation best practices. As part of this briefing, we stated the IFS acquisition team did not
document negotiation priorities. On February 15, 2005, the former IFS Contracting Officer provided a list of
negotiation points to document IFS negotiation priorities.
                                                                                                               Page 65
        While Many Improvements Have Been Made, Continued Focus Is Needed
 to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                     Contracting

Practices Summary and Analysis, Defense Procurement and Acquisition Policy Best Practices, World-Class
Contracting 100+ Best Practices for Building Successful Business Relationships, and Office of Federal
Procurement Policy A Guide to Best Practices for Performance-Based Service Contracting).
NOTE: The presence of the letters “n/a” signifies the particular task order was not judged against the
best practice for one of several reasons (e.g., the best practice may not apply to all task orders). The
presence of the word “Yes” signifies the particular task order is in compliance with the best practice. The
presence of the word “No” signifies the particular task order is not in compliance with the best practice.




                                                                                                     Page 66
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting

                                                                        Appendix IX


                  Management’s Response to the Draft Report




                                                                              Page 67
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 68
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 69
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 70
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 71
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 72
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 73
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 74
       While Many Improvements Have Been Made, Continued Focus Is Needed
to Improve Contract Negotiations and Fully Realize the Potential of Performance-Based
                                    Contracting




                                                                              Page 75
